<html>
<title> - S. 1009, THE CHEMICAL SAFETY IMPROVEMENT ACT</title>
<body><pre>[House Hearing, 113 Congress]
[From the U.S. Government Publishing Office]



 
              S. 1009, THE CHEMICAL SAFETY IMPROVEMENT ACT

=======================================================================


                                HEARING

                               BEFORE THE

              SUBCOMMITTEE ON ENVIRONMENT AND THE ECONOMY


                    COMMITTEE ON ENERGY AND COMMERCE

                        HOUSE OF REPRESENTATIVES

                    ONE HUNDRED THIRTEENTH CONGRESS

                             FIRST SESSION

                               __________

                           NOVEMBER 13, 2013

                               __________

                           Serial No. 113-92



      Printed for the use of the Committee on Energy and Commerce

                        energycommerce.house.gov




                  U.S. GOVERNMENT PRINTING OFFICE
87-628                    WASHINGTON : 2014
-----------------------------------------------------------------------
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; DC 
area (202) 512-1800 Fax: (202) 512-2104  Mail: Stop IDCC, Washington, DC 
20402-0001




                    COMMITTEE ON ENERGY AND COMMERCE

                          FRED UPTON, Michigan
                                 Chairman

RALPH M. HALL, Texas                 HENRY A. WAXMAN, California
JOE BARTON, Texas                      Ranking Member
  Chairman Emeritus                  JOHN D. DINGELL, Michigan
ED WHITFIELD, Kentucky               FRANK PALLONE, Jr., New Jersey
JOHN SHIMKUS, Illinois               BOBBY L. RUSH, Illinois
JOSEPH R. PITTS, Pennsylvania        ANNA G. ESHOO, California
GREG WALDEN, Oregon                  ELIOT L. ENGEL, New York
LEE TERRY, Nebraska                  GENE GREEN, Texas
MIKE ROGERS, Michigan                DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
MICHAEL C. BURGESS, Texas            MICHAEL F. DOYLE, Pennsylvania
MARSHA BLACKBURN, Tennessee          JANICE D. SCHAKOWSKY, Illinois
  Vice Chairman                      JIM MATHESON, Utah
PHIL GINGREY, Georgia                G.K. BUTTERFIELD, North Carolina
STEVE SCALISE, Louisiana             JOHN BARROW, Georgia
ROBERT E. LATTA, Ohio                DORIS O. MATSUI, California
CATHY McMORRIS RODGERS, Washington   DONNA M. CHRISTENSEN, Virgin 
GREGG HARPER, Mississippi            Islands
LEONARD LANCE, New Jersey            KATHY CASTOR, Florida
BILL CASSIDY, Louisiana              JOHN P. SARBANES, Maryland
BRETT GUTHRIE, Kentucky              JERRY McNERNEY, California
PETE OLSON, Texas                    BRUCE L. BRALEY, Iowa
DAVID B. McKINLEY, West Virginia     PETER WELCH, Vermont
CORY GARDNER, Colorado               BEN RAY LUJAN, New Mexico
MIKE POMPEO, Kansas                  PAUL TONKO, New York
ADAM KINZINGER, Illinois             JOHN A. YARMUTH, Kentucky
H. MORGAN GRIFFITH, Virginia
GUS M. BILIRAKIS, Florida
BILL JOHNSON, Ohio
BILLY LONG, Missouri
RENEE L. ELLMERS, North Carolina

                                 _____

              Subcommittee on Environment and the Economy

                         JOHN SHIMKUS, Illinois
                                 Chairman
PHIL GINGREY, Georgia                PAUL TONKO, New York
  Vice Chairman                        Ranking Member
RALPH M. HALL, Texas                 FRANK PALLONE, Jr., New Jersey
ED WHITFIELD, Kentucky               GENE GREEN, Texas
JOSEPH R. PITTS, Pennsylvania        DIANA DeGETTE, Colorado
TIM MURPHY, Pennsylvania             LOIS CAPPS, California
ROBERT E. LATTA, Ohio                JERRY McNERNEY, California
GREGG HARPER, Mississippi            JOHN D. DINGELL, Michigan
BILL CASSIDY, Louisiana              JANICE D. SCHAKOWSKY, Illinois
DAVID B. McKINLEY, West Virginia     JOHN BARROW, Georgia
GUS M. BILIRAKIS, Florida            DORIS O. MATSUI, California
BILL JOHNSON, Ohio                   HENRY A. WAXMAN, California (ex 
JOE BARTON, Texas                        officio)
FRED UPTON, Michigan (ex officio)

                                  (ii)


                             C O N T E N T S

                              ----------                              
                                                                   Page
Hon. John Shimkus, a Representative in Congress from the State of 
  Illinois, opening statement....................................     1
    Prepared statement...........................................     2
Hon. Paul Tonko, a Representative in Congress from the State of 
  New York, opening statement....................................     3
Hon. John D. Dingell, a Representative in Congress from the State 
  of Michigan, opening statement.................................     5
Hon. Fred Upton, a Representative in Congress from the State of 
  Michigan, prepared statement...................................   134
Hon. Henry A. Waxman, a Representative in Congress from the State 
  of California, prepared statement..............................   135

                               Witnesses

Hon. David Vitter, a United States Senator from the State of 
  Louisiana \1\..................................................     8
Hon. Tom Udall, a United States Senator from the State of New 
  Mexico \1\.....................................................     9
James Jones, Assistant Administrator, Office of Chemical Safety 
  and Pollution Prevention, Environmental Protection Agency......    11
    Prepared statement...........................................    14
    Answers to submitted questions...............................   190
Cal Dooley, President and Chief Executive Officer, American 
  Chemistry Council..............................................    46
    Prepared statement...........................................    49
    Answers to submitted questions...............................   194
Ernest Rosenberg, President and Chief Executive Officer, American 
  Cleaning Institute.............................................    54
    Prepared statement...........................................    56
Richard A. Denison, Senior Scientist, Environmental Defense Fund.    67
    Prepared statement...........................................    69
    Answers to submitted questions...............................   198
Dean C. Garfield, President and Chief Executive Officer, 
  Information Technology Industry Council........................    84
    Prepared statement...........................................    86
Andy Igrejas, Director, Safer Chemicals, Healthy Families........    93
    Prepared statement...........................................    96
    Answers to submitted questions \2\...........................   204
Wendy E. Wagner, Joe A. Worsham Centennial Professor, University 
  of Texas Law School............................................   103
    Prepared statement...........................................   105
    Answers to submitted questions...............................   205

                           Submitted Material

Letter of October 23, 2007, from Frances G. Beinecke, President, 
  Natural Resources Defense Council, et al., to Mr. Dingell, 
  submitted by Mr. Dingell.......................................     6
Letter of June 25, 2013, from Matthew Rodriguez, Secretary for 
  Environmental Protection, California Environmental Protection 
  Agency, to Senator Dianne Feinstein, et al., submitted by Mr. 
  Shimkus........................................................   137
Letter of November 13, 2013, from Jeanne Rizzo, President and 
  Chief Executive Officer, Breast Cancer Fund, to Mr. Shimkus and 
  Mr. Tonko, submitted by Mr. Shimkus............................   150

----------
\1\ Mr. Vitter and Mr. Udall did not submit written statements for the 
record.
\2\ Mr. Igrejas did not answer submitted questions for the record by 
the time of printing.
Letter of July 24, 2013, from National Conference of State 
  Legislatures co-chairs to Senator Barbara Boxer and Senator 
  David Vitter, submitted by Mr. Shimkus.........................   155
Letter of November 12, 2013, from Rainer Lohmann, Graduate School 
  of Oceanography, University of Rhode Island, et al., to Mr. 
  Upton and Mr. Waxman, submitted by Mr. Shimkus.................   161
Letter of June 12, 2013, from John S. Applegate, Walter W. 
  Foskett Professor of Law, Indiana University Maurer School of 
  Law, et al., to Mr. Shimkus and Mr. Tonko, submitted by Mr. 
  Shimkus........................................................   169
Letter of November 12, 2013, from Debra Baseman, Princeton 
  Medical Group, et al., to Mr. Upton and Mr. Waxman, submitted 
  by Mr. Shimkus.................................................   186


              S. 1009, THE CHEMICAL SAFETY IMPROVEMENT ACT

                              ----------                              


                      WEDNESDAY, NOVEMBER 13, 2013

                  House of Representatives,
       Subcommittee on Environment and the Economy,
                          Committee on Energy and Commerce,
                                                    Washington, DC.
    The subcommittee met, pursuant to call, at 10:18 a.m., in 
room 2123 of the Rayburn House Office Building, Hon. John 
Shimkus (chairman of the subcommittee) presiding.
    Members present: Representatives Shimkus, Gingrey, Pitts, 
Murphy, Latta, Cassidy, McKinley, Bilirakis, Johnson, Tonko, 
Pallone, Green, DeGette, Capps, McNerney, Dingell, Barrow, and 
Waxman (ex officio).
    Staff present: Nick Abraham, Legislative Clerk; Charlotte 
Baker, Press Secretary; Jerry Couri, Senior Environmental 
Policy Advisor; Brad Grantz, Policy Coordinator, Oversight and 
Investigations; David McCarthy, Chief Counsel, Environment and 
the Economy; Brandon Mooney, Professional Staff Member; Andrew 
Powaleny, Deputy Press Secretary; Chris Sarley, Policy 
Coordinator, Environment and the Economy; Jacqueline Cohen, 
Democratic Senior Counsel; Greg Dotson, Democratic Staff 
Director, Energy and Environment; and Caitlin Haberman, 
Democratic Policy Analyst.
    Mr. Shimkus. I would like to call the hearing to order.
    We want to welcome our two Senators. First, I will do--we 
will do our opening statements, and then we will give you yours 
and then--and we will begin. I recognize myself for 5 minutes.

  OPENING STATEMENT OF HON. JOHN SHIMKUS, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF ILLINOIS

    Today we hold our fourth hearing of 2013 on the Toxic 
Substance Control Act. We welcome our witnesses, including a 
couple of former House guys; Senator Vitter and Senator Udall, 
as well as Jim Jones, Assistant Administrator of the EPA, and 
some of the important stakeholders in this discussion.
    Until more recently, TSCA was one of the least understood 
Federal environmental laws, but it is one of the most important 
environmental protections laws that we have. It governs 
chemical substances, mixtures and articles from the time they 
are invented, all the way through the stream of commerce.
    Our hearings have been very instructive. They have given us 
a chance to dig into the nuts and bolts of this complex body of 
law. Among other aspects of the law, we studied approval of new 
chemicals, regulation of existing chemicals, protection of 
confidential business information, and the value of a seamless 
integrated U.S. market for chemicals and products that contain 
them. We have gotten the perspective of learned experts in the 
practice of TSCA law, former EP officials experienced in what 
works and what doesn't work in the law's administration, State 
environmental control officials, downstream product 
manufacturers, and citizen activists.
    As we will hear firsthand in just a few minutes, a lot of 
thought and hard work has also gone into TSCA on the other side 
of the Capitol. Earlier this year, Senator Vitter and the late 
Senator Frank Lautenberg, with strong bipartisan support, 
introduced Senate Bill 1009, the Chemical Safety Improvement 
Act. Its reform, if enacted, will represent the most sweeping 
set of changes to TSCA since the Ford administration.
    We are eager to learn what aspects of this proposal brought 
such a diverse set of supporters together. We hope this 
administration and our panel will tell us what they see as the 
best attributes of the legislation. We also hope to entertain 
suggestions on how to make it better.
    Writing legislation as complex and as important as 
modernizing TSCA is not easy, but implementing it may be even 
tougher. Congress can give EPA both the authority and direction 
to carry out everything in a new TSCA, but we just can't assume 
that the Agency has the resources to accomplish all of it, nor 
that they will get it done in a short period of time of 
enactment. That is why we need some guidance from Jim Jones, 
who manages the chemical regulation for the EPA. Mr. Jones, we 
hope your help won't end with today's hearing. The same goes 
for stakeholders, and not only the ones we will hear from 
today. We need your help in understanding the real world 
implications of any legislation we might consider. No one, 
whether on this side of the dais or on the witness table, has 
all the answers, but that doesn't mean we don't need you to 
give us all of your input.
    And, finally, thanks to all the members of the subcommittee 
for your thoughtful work this year on TSCA. Have you noticed 
that our hearings have not been debates across the aisle, but 
rather nonpartisan efforts to understand the current law? At 
times, I have learned as much from questions from Mr. Tonko or 
Ms. DeGette, and the answers witnesses give them, as I have 
from my own brilliant questions that I have offered.
    Let us continue to embrace that same spirit as we begin to 
explore whether we can make Federal chemical management policy 
better, and allow the United States to lead the global--the 
globe in manufacturing smarter public health protection and 
innovation.
    [The prepared statement of Mr. Shimkus follows:]

                Prepared statement of Hon. John Shimkus

    Today we hold our fourth hearing of 2013 on the Toxic 
Substances Control Act. We welcome our witnesses, including a 
couple of former House guys, Senators Vitter and Udall, as well 
as Jim Jones, Assistant Administrator of EPA, and some of the 
important stakeholders in this discussion.
    Until more recently, TSCA was one of the least understood 
Federal environmental laws, but it is one of our most important 
environmental protection laws. It governs chemical substances, 
mixtures, and articles from the time they are invented all the 
way through the stream of commerce. Our hearings have been very 
instructive. They've given us a chance to dig into the nuts and 
bolts of this complex body of law.
    Among the aspects of the law, we've studied:
    <bullet> L Approval of new chemicals,
    <bullet> L Regulation of existing chemicals,
    <bullet> L Protection of confidential business information, 
and
    <bullet> L The value of seamless, integrated U.S. market 
for chemicals and products that contain them.
    We've gotten the perspective of:
    <bullet> L Experts in the practice of TSCA law;
    <bullet> L Former EPA officials experienced in what works 
and what doesn't work in the law's administration;
    <bullet> L State environmental control officials;
    <bullet> L Downstream product manufacturers; and
    <bullet> L Citizen activists.
    As we'll hear first-hand in just a few minutes, a lot of 
thought and hard work has also gone into TSCA on the other side 
of the Capitol. Earlier this year Senator Vitter and late-
Senator Frank Lautenberg with strong bipartisan support 
introduced S. 1009, the Chemical Safety Improvement Act. Its 
reforms, if enacted, would represent the most sweeping set of 
changes to TSCA since the Ford administration.
    We're eager to learn what about this proposal brought such 
a diverse set of supporters together. We hope the 
administration and our stakeholder panel will tell us what they 
see as the best attributes of the legislation. We're also open 
to suggestions on how to make it better.
    Writing legislation as complex and as important as 
modernizing TSCA is not easy. But implementing it may be even 
tougher. Congress can give EPA both the authority and direction 
to carry out everything in a new TSCA, but we can't just assume 
that the agency has the resources to accomplish all of it, nor 
that they'll get it all done in a short period of time after 
enactment.
    That's why we need some guidance from Jim Jones who manages 
chemical regulation for EPA. And, Mr. Jones, we hope your help 
won't end with today's hearing.
    The same goes for stakeholders, and not only the ones we'll 
hear from today. We need your help in understanding the real-
world implications of any legislation we might consider. No 
one, whether on this side of the dais or at the witness table, 
has all the answers, but that does not mean we don't need you 
to give us all of your input.
    And, finally, thanks to all the members of this 
subcommittee for your thoughtful work this year on TSCA. Have 
you noticed that our hearings have not been debates across the 
aisle, but rather non-partisan efforts to understand current 
law? At times I've learned as much from questions by Mr. Tonko 
or Mrs. DeGette, and the answers witnesses have given him, as I 
have from my own.
    Let's continue to embrace that same spirit as we begin to 
explore whether we can make Federal chemical management policy 
better and allow the United States to lead the globe in 
manufacturing, smarter public health protection, and 
innovation.

    Mr. Shimkus. With that, I yield back the balance of my 
time, and I yield 5 minutes to Mr. Tonko, the ranking member of 
the subcommittee.

   OPENING STATEMENT OF HON. PAUL TONKO, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF NEW YORK

    Mr. Tonko. Thank you, Mr. Chair, and good morning. I am 
pleased to be here today for this important hearing on the 
Chemical Safety Improvement Act. It is a pleasure to welcome 
Senator Vitter and Senator Udall here to discuss their 
perspectives on TSCA, TSCA reform, and report on their ongoing 
efforts to reconcile the interests of the many constituencies 
who have a deep stake in chemical issues. It is not an easy 
task.
    This is our subcommittee's fourth hearing on TSCA. There 
seems to be general agreement by all parties that the current 
law simply is not working. Current law does not give the 
Environmental Protection Agency the tools or the resources the 
agency needs to implement an effective toxic chemical program, 
but general agreement on these observations is no guarantee of 
agreement on the best way to address these problems. And it 
appears we still have some disagreement about which aspects of 
TSCA are in need of revision.
    The public does not have confidence in this law or EPA's 
implementation of it. Industry's assertion that its products 
are safe is simply not good enough. Because the Federal law is 
ineffective, States have stepped in to address specific 
chemical risks. State action provides an essential backstop to 
Federal law, but individual State actions do not provide a 
uniform safety guarantee to all of our citizens, and they do 
not provide national standards and regulatory certainty to 
industry.
    So where do we go from here?
    The bipartisan initiative represented by S. 1009 offers us 
an opportunity for broad participation in the effort to reform 
TSCA, and that is what we need; broad participation in this 
effort. Because chemicals are such a part of our daily lives, 
we all have a stake in this effort. This bill does not yet 
address many of the current law's shortcomings. In some 
respects, it takes us backward by preempting States' ability to 
act, for example.
    There is no need for a State preemption. If this proposal 
provides EPA with the tools to protect all of our citizens, 
including those who are the most vulnerable; children and our 
elderly, there will be far less call for individual State 
action, but States should retain their rights to act in the 
best interests of their citizens, and to address specific State 
concerns when, indeed, it is necessary.
    I am concerned about retaining the unreasonable risk 
standard from current law when it has not proven to be a 
sufficient basis for Agency action over the past 37 years.
    EPA cannot evaluate the potential risk or relative safety 
of chemicals without sufficient information. The fact is we 
still have many chemicals circulating in commerce for which we 
have little health and safety information, and even less about 
their behavior in the environment. This problem stems from 
several weaknesses in the current law, which this legislation 
only partially addresses. We need a Federal chemical law that 
provides adequate protection of public health and the 
environment, and that promotes continued innovation in our 
chemical industry.
    The Chemical Safety Improvement Act does not yet achieve 
the right balance between these important goals, but with 
additional work it could. We have a very knowledgeable and 
experienced group of individuals here today who will offer 
constructive suggestions to this subcommittee about how to 
proceed.
    Thank you for being with us this morning. I look forward to 
hearing your views on the Chemical Safety Improvement Act, and 
your recommendations for creating what needs to be an effective 
chemical safety law.
    Thank you, and I yield back.
    Mr. Shimkus. Gentleman yields back his time. The Chair now 
seeks anyone need time on the majority side. Seeing none, the 
Chair now recognizes the chairman emeritus, Mr. Dingell, for 5 
minutes.

OPENING STATEMENT OF HON. JOHN D. DINGELL, A REPRESENTATIVE IN 
              CONGRESS FROM THE STATE OF MICHIGAN

    Mr. Dingell. I thank you for holding this hearing. This is 
a valuable act, and I am much appreciative to you.
    We need to know what is going on with regard to TSCA, the 
Toxic Substances Control Act. It is long past time to reform 
this law. EPA has not been able to tackle even the most 
dangerous of chemicals and substances, and we may need to find 
a way to fix this problem.
    There has been only a few successes of TSCA since it was 
signed into law by my good friend from Michigan, former member 
of this body, our good friend, President Gerald Ford. During 
the House floor debate on TSCA, I was successful in proposing 
an amendment to phase out the use of PCBs. That, I think, and 
six other substances are about all that TSCA has been able to 
remove from the trade.
    We are finding out today what kind of negative effects PCBs 
have on the food chain, human health, wildlife and water 
quality. Frankly, it is very bad, and they remain a part of the 
chain even though they have been long removed. My amendment was 
supported by industry and by the environmentalists, and was 
adopted by a voice vote. Those kinds of things are possible to 
do, and I would note that we think that industry and the others 
who are concerned with these matters can work together, and I 
hope that this committee will give them the chance so to do.
    The most recent change to TSCA happened only a few years 
ago when I was chairman of the committee, and when we passed 
the Mercury Export Ban Act. I have here a letter from 2007 
penned by the National Mining Association and Natural Resources 
Defense Council, the American Chemistry Council, the 
Environmental Council of State, and McLaren Institute in 
support of that legislation, and I ask unanimous consent that 
it be inserted in the record.
    Mr. Shimkus. Without objection, so ordered.
    [The information follows:]
    [GRAPHIC] [TIFF OMITTED] T7628.001
    
    Mr. Dingell. And I thank you for that.
    The reason I suggest this is it shows that we can work 
together where there is the will, and your leadership, I hope, 
will provide us that necessary requirement.
    My point here is that any overhaul of TSCA must include 
broad support from industry, environmental and conserver 
groups. From the time that we passed the Clean Air Act 
amendments of 1977, this committee has held frequent hearings 
over the next 13 years until we ultimately passed the Clean Air 
Act amendments of 1990. An interesting story about that was, 
somebody said, Dingell, what a great thing you did in getting 
this bill through the House in 13 hours. I said, yes, it only 
took me 13 years to do it. But the harsh fact of the matter is 
these things take a lot of hard work, and a lot of time and a 
lot of cooperation.
    I think industry and others who have concerns on this, 
consumers and environmentalists, are willing to work together, 
and your leadership, I think, will be of enormous value in 
achieving that great goal.
    There has been much debate on the--in the Senate about the 
legislation before us, and I am pleased to see that we have two 
of our former colleagues from the Senate over here to discuss 
these matters with us. Before supporting any legislation, 
however, I would hope that the broad support that we saw from 
the Mercury Export Ban in 2007, and for TSCA in 1976, will be 
available.
    I do look forward to today's hearings, and I commend you, 
and I hope that we can find compromises that will gain not just 
the 218 votes on the House floor, but will come closer to the 
unanimity that we have seen on other legislation that has come 
out of this committee, including the Clean Air Act, which we 
passed by an overwhelming majority with, I think, less than 10 
votes against it. So I hope that we can work together. The task 
will be difficult. The problem is very complex, and I think the 
challenge is great, but I am hopeful that the members of the 
committee can pull together on this, your leadership will be 
successful, and that we will accomplish the great goal of 
cleaning up the mess that we have on TSCA, and seeing to it 
that it works with the other problems that we have in 
connection with Clean Air, Superfund and all the other 
difficulties that we confront.
    I thank you for your courtesy to me, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time. Now the Chair 
would like--again, wants to welcome our former colleagues from 
the House, now U.S. Senators, back to the House side and to the 
Energy and Commerce Committee room. This has been an issue that 
has been going on for many years, and Senator Vitter and I sat 
down 3 years ago, and--when he started working with Senator 
Lautenberg on this. So we are glad to have you present, and I 
would recognize each of you 5 minutes. That is not a hard time. 
And then we will dismiss you and we won't put you up to 
questions from your former colleagues. Who knows what they 
would ask.
    So with that, we would like to recognize Senator David 
Vitter from Louisiana for 5 minutes.

 STATEMENTS OF HON. DAVID VITTER, A UNITED STATES SENATOR FROM 
  THE STATE OF LOUISIANA; AND HON. TOM UDALL, A UNITED STATES 
               SENATOR FROM THE STATE OF COLORADO

                 STATEMENT OF HON. DAVID VITTER

    Mr. Vitter. Thank you very much, Chairman Shimkus and 
Ranking Member Tonko and all the members for this invitation. 
Senator Udall and I are really excited to be here to talk about 
our work, particularly over the last few months, to ensure that 
S. 1009, the Chemical Safety Improvement Act, which I had the 
real honor and pleasure of introducing with Frank Lautenberg, 
continues to improve, and ultimately gets us to where we need 
to be so that finally, after 37 long years, we modernize and 
repair the badly-outdated Toxic Substances Control Act.
    Today's hearing is a huge step in the right direction, and 
I know it is continuing your work, the fourth hearing that you 
have had on this important topic, and I am really excited to 
see your work and see it dovetail with our work.
    The Lautenberg-Vitter Bill, which is currently co-sponsored 
by a very bipartisan and politically-diverse quarter of the 
U.S. Senate, was the product of extensive negotiations, and I 
believe it exemplifies solid positive bipartisan compromise and 
good policy. But while we were putting together the bill 
initially, certainly, Frank Lautenberg and I never thought we 
had perfect legislation. And so that is why I have been honored 
to partner with Senator Udall since Frank's passing, to 
strengthen S. 1009, and we have committed ourselves to meeting 
with anyone interested in achieving significant bipartisan TSCA 
reform.
    After a long hearing, for instance, in July in our Senate 
committee, and countless hours of meetings, we fully recognize 
the issues that have been raised, some legitimate, some not, 
with the Lautenberg-Vitter Bill. And I think it has made--been 
made abundantly clear, but I will certainly say it again, and I 
know Senator Udall agrees, anyone interested in achieving 
meaningful bipartisan compromise to ensure TSCA reform protects 
all Americans in all 50 States, not just a small segment of the 
population, or the financial interests of some particular 
constituency, anyone who has those interests has a welcome seat 
at the table. And I am confident that by working with Senator 
Udall and interested stakeholders, the EPA, all of you, other 
members, co-sponsors of S. 1009 and others, will achieve a 
final version that not only enhances business certainty and 
creates a strong Federal chemicals management system, but also 
sets meaningful deadlines and protects the most vulnerable 
among us, effectively screens all active chemicals in commerce, 
and guarantees Americans access to private rights of action and 
legal remedies, and makes certain that EPA has the tools 
necessary to ensure the chemicals that we are all exposed to 
are indeed safe.
    Now, as I said, anyone interested in a meaningful, 
substantive result and bipartisan compromise is welcome to a 
seat at the table, but I do want to urge that the Lautenberg-
Vitter Bill, which was the product of a lot of hard work and 
real compromise itself, is the core and the foundation that we 
build from. Frank himself called that compromise an historic 
step that would ``fix the flaws with current law.'' Vice 
President Biden referred to our efforts as a ``bipartisan 
breakthrough.'' In a statement from Senator Lautenberg's widow, 
Bonnie, she remembered, ``Frank told me that this bill would be 
bigger and could save more lives than his law to ban smoking on 
airplanes.'' And in her words, ``passage of this bill would be 
a wonderful cap to his career and testament to his legacy.''
    So S. 1009 is Senator Lautenberg's legacy bill, and I hope 
we work hard to improve it, take up any significant legitimate 
issue. We have been doing that through my work with Senator 
Udall, but in doing that, I hope we do not go back, quite 
frankly, to failed previous efforts that were completely stuck-
in-the-mud on partisan lines. And so, again, I want to urge us 
to stick to this core as we improve it and pass it into law.
    I would be remiss not to mention the work that went into 
achieving this compromise with Frank, because it didn't happen 
overnight, didn't happen without a lot of work and a lot of 
give-and-take from both of us. He was a very talented 
legislator committed to making the world a better place. I 
enjoyed arguing and negotiating and working with him. Frank's 
wife, Bonnie, was there to take pictures the day Frank and I 
shook hands on the core pivotal agreement, and again, I am 
really pleased and honored that Senator Udall and I have 
partnered carrying on that work and that legacy to get it 
across the finish line.
    Again, I want to thank each and every one of you for all of 
your work on TSCA, I know it has been ongoing, and specifically 
for this hearing as part of that continuing conversation.
    Thank you for the invitation.
    Mr. Shimkus. Thank you. And the Chair now recognizes 
Senator Udall. And, sir, you are recognized for 5 minutes.

                    STATEMENT HON. TOM UDALL

    Mr. Udall. OK. Thank you very much for the invitation to be 
here today, and I really in particular want to thank Chairman 
Shimkus and also Ranking Member Tonko.
    We--Senator Vitter and I both appreciate this opportunity. 
And let me just, at the beginning, just say what a pleasure it 
has been working with Senator Vinner--Vitter and all of the 
stakeholders to try to center-in on something that we think can 
get through the Senate, and also I hope will be received over 
here with some kudos and applause.
    S. 1009, the Chemical Safety Improvement Act, has been the 
center of a lot of debate and discussion in the Senate since 
its introduction. When I first cosponsored the legislation, I 
did so for two reasons; one, I believed the bill addressed some 
of the key flaws in TSCA, and that has been noted here. There 
have been a number of flaws there. And I was very moved by the 
spirit of bipartisan compromise led by Senator Frank Lautenberg 
and Senator Vitter in an area where the two parties are often 
very far apart.
    My staff and I and Senator Vitter's staff have spent many 
months since the introduction, working on this legislation and 
working with the various stakeholders. S. 1009 is not perfect, 
and, as introduced, has some key problems that need to be 
addressed. As Senator Lautenberg's successor, as chairman of 
the Senate Subcommittee on Superfund, Toxics and Environmental 
Health, I respect the criticism the bill is receiving, and I 
strongly believe several key areas must be addressed for this 
legislation to be successful.
    Chairwoman Boxer held a hearing on this issue earlier this 
year which delved into these issues. I applaud this committee 
for taking similar action.
    I think many of these problems are unintentional, but many 
in the environment and health community believe these issues 
mean this legislation should not move forward as-is, and given 
the fact that we are talking about one of the most ineffective 
laws on the books, that is worth noting. I agree that we should 
not pass S. 1009 as introduced, but I am, and will continue to 
be, optimistic about the incredible bipartisan spirit around 
finding reform and protecting our families from dangerous 
chemicals.
    As the subcommittee chair, I want to develop and pass 
legislation that safeguards our citizens. S. 1009 has a number 
of strong elements of needed reform, as well as problems. We 
can, building off of that, and that is why I have committed so 
much time to working with Senators of both parties to improve 
this bill so that it could move forward and be something we can 
all be proud of.
    Through the--through that process, I have come to 
appreciate how big a challenge this is. After all, TSCA's own 
fatal flaws have not been fixed in decades. Nevertheless, I 
believe we are up to the challenge.
    Here are the big three issues with the current Senate bill 
that we are working on. Number one, ensuring that the EPA will 
have the tools it needs to protect citizens from dangerous 
chemicals, and to ensure that EPA will be able to review the 
known 84,000 chemicals. This means getting the prioritization 
and deadlines right, along with specifically protecting 
vulnerable populations. Second, we must make sure to protect 
private rights of action, to hold companies responsible, and 
ensure they don't cut corners. As a subcommittee chair and 
supporter of justice for victims, it is not my intent to 
preempt private claims. That has been stated publicly by myself 
and by Senator Vitter. Further changes are absolutely necessary 
to make this intent clear throughout the bill. And finally, we 
must make sure to protect the right of States to safeguard our 
citizens.
    On that last point, let me take a moment to say to Ranking 
Member Waxman and members of the California delegation that the 
chair of our committee, Barbara Boxer, has been a tireless 
advocate for the State of California and our country. I 
appreciate the leadership she has shown to protect citizens 
from dangerous chemicals, and I believe that California and 
other States play a critical role in lifting up health and 
safety standards for our country.
    As this committee proceeds on its own deliberations of how 
to reform TSCA, I would word--urge you to work together as we 
are working together, and I am sure you will. I think it would 
benefit us all to work together on a bipartisan and bicameral 
basis. TSCA has been a failed environmental law for decades. We 
have a historic opportunity before us. Success is far from 
certain, but it would be a shame to waste it.
    And thank you again, Chairman Shimkus. Pleasure to be over 
here with my former colleagues, and we look forward, Senator 
Vitter and I do, on working with you on this piece of 
legislation.
    Mr. Shimkus. I want to thank you both for coming over. We 
appreciate the efforts you have made so far, and really the 
bipartisan approach is going to be critical in moving anything, 
and we look forward to working with you as we move through this 
process. So thank you again. You are dismissed, and we will 
then seat our second panel.
    So, as stated in my opening statement, we would like now to 
welcome and thank you for coming, the Honorable Jim Jones. You 
are--he was the Assistant Administrator, Office of Chemical 
Safety and Pollution Prevention, with the United States 
Environmental Protection Agency.
    Sir, you have 5 minutes. We are not hardcore on the time. 
This is a very important issue, and we look forward to your 
opening statement.

 STATEMENT OF JAMES JONES, ASSISTANT ADMINISTRATOR, OFFICE OF 
    CHEMICAL SAFETY AND POLLUTION PREVENTION, ENVIRONMENTAL 
                       PROTECTION AGENCY

    Mr. Jones. Good morning, Chairman Shimkus, Ranking Member 
Tonko, and other members of the subcommittee.
    Thank you for inviting me to--for the opportunity to 
discuss reform of the chemicals management laws of the United 
States.
    I think we all agree on the importance of ensuring that the 
chemicals manufactured and used in this country are safe. With 
each passing year, the need for TSCA reform grows, and this 
administration believes it is crucial to modernize and 
strengthen the Toxic Substances Control Act to provide EPA with 
the necessary tools to achieve these goals.
    EPA is encouraged by the interest in TSCA reform, indicated 
by the introduction of several bills in recent years, the 
bipartisan discussions underway, and today's hearing which 
marks the fourth in a series of hearings on TSCA reform before 
this subcommittee.
    Many stakeholders share common principles on how best to 
improve our chemicals management programs. EPA is committed to 
working with each of you and other members of Congress, the 
environmental community, the chemical industry, other 
stakeholders and the public to improve and update TSCA.
    As you know, chemicals are found in almost everything we 
use and consume. While they are essential for our health, 
wellbeing and prosperity, it should be equally essential that 
they are safe. Compared to 37 years ago when TSCA was passed, 
we have a much better understanding of the environmental 
impacts, pathways of exposure and health effects that some 
chemicals can have, especially on children and other sensitive 
populations.
    TSCA gives EPA jurisdiction over chemicals manufactured, 
processed or distributed in the United States; however, unlike 
laws applicable to drugs and pesticides, TSCA does not have a 
mandatory program that gives EPA the authority to conduct a 
review to determine the safety of existing chemicals. In 
addition, TSCA places challenging legal and procedural 
requirements on EPA before we can require the generation and 
submission of data on the health and environmental effects of 
existing chemicals.
    While TSCA was an important step forward when it passed in 
1976, it has not only fallen behind the industry it was 
intended to regulate, it has also proven an inadequate tool for 
providing the American public with the protection they 
rightfully expect from exposure to harmful chemicals. When TSCA 
was enacted, it grandfathered-in, without any evaluation, about 
60,000 chemical in commerce at the time.
    It has also proven challenging to take action to limit or 
ban chemicals that have been determined to pose significant 
health concern. For example, in 1989, after years of study, EPA 
issued a rule phasing out most uses of asbestos in products. 
Yet, in spite of near-unanimous scientific opinion, a Federal 
court overturned most of this action because it found the rules 
had failed to comply with the requirements of TSCA. In the past 
37 years, the EPA has regulated only 5 chemicals under Section 
6 of TSCA, which gives the EPA the authority to ban harmful 
chemicals.
    While EPA is committed to using the tools available under 
TSCA, we believe it should be updated and strengthened to 
ensure that EPA has the appropriate tools to protect the 
American public from exposure to harmful chemicals. It is 
crucial that any updates to TSCA include certain components.
    In September of 2009, the administration announced a set of 
principles to help guide the discussion to update and 
strengthen TSCA. These include providing the agency with the 
tools to quickly and efficiently obtain information from 
manufacturers that is relevant to determining the safety of 
chemicals. The EPA also should have clear authority to assess 
chemicals against a risk-based safety standard, and to take 
risk management actions when chemicals do not meet the 
standard.
    On April 15, Senators Lautenberg, Vitter and others 
introduced S. 1009, the Chemical Safety Improvement Act. While 
EPA has not yet developed a formal position on the bill, we 
offer the following observations in light of the Agency and the 
administration principles. As stated in the principles, 
legislation should provide EPA with authority to establish 
risk-based safety standards that are protective of human health 
and the environment. The EPA should have clear authority to 
take risk management actions when chemicals do not meet the 
safety standard, with flexibility to take into account a range 
of consideration, including children's health, economic costs, 
social benefits and equity concerns. The principles further 
indicate that clear, enforceable and practicable deadlines 
should be set for the Agency to review and make decisions on 
chemicals, in particular, those that might impact sensitive 
populations, and provide a sustained source of funding for 
implementation. Administrative requirements should add 
demonstrable value to the process beyond existing law and 
requirements. Legislation should provide the EPA with tools to 
ensure the protections put in place are carried out, and 
provide a level playing field for companies that comply.
    We understand the concerns raised by many stakeholders 
regarding the appropriate role for States in addressing the 
risks of chemicals to which their citizens are exposed, and EPA 
stands ready to provide technical assistance on this important 
issue.
    Mr. Chairman, thank you again for your leadership on TSCA 
reform, and I will be happy to answer questions that you or 
members of the committee have. Thank you.
    [The prepared statement of Mr. Jones follows:]
    [GRAPHIC] [TIFF OMITTED] T7628.002
    
    [GRAPHIC] [TIFF OMITTED] T7628.003
    
    [GRAPHIC] [TIFF OMITTED] T7628.004
    
    [GRAPHIC] [TIFF OMITTED] T7628.005
    
    [GRAPHIC] [TIFF OMITTED] T7628.006
    
    [GRAPHIC] [TIFF OMITTED] T7628.007
    
    [GRAPHIC] [TIFF OMITTED] T7628.008
    
    Mr. Shimkus. Thank you. Now I will recognize myself for the 
first 5 minutes for the starting of questions.
    So, again, welcome.
    Does Senate Bill 1009, in your opinion, strengthen EPA's 
ability to prevent dangerous new chemicals or those with 
inadequate information from entering the market?
    Mr. Jones. Yes, Congressman. To clarify, the existing 
statute does not require EPA to make an affirmative finding of 
safety for a new chemical, as 1009 requires an affirmative 
finding on the part of the EPA before a new chemical can enter 
the market. As it relates to data generation, interestingly, my 
attorneys have read the bill to provide EPA with the ability to 
require the generation of data if necessary to make a finding.
    There are other stakeholders who are not reading that 
provision the same way, which to me is an indication that there 
may be a need for clarification around that.
    Mr. Shimkus. Thank you. Do you consider Senate 1009 an 
improvement over current law for EPA to address hazards and 
risk of chemical substances in American commerce?
    Mr. Jones. So, you know, as we heard from Senator Udall, 
TSCA is perhaps one of the most poorly implemented 
environmental statutes, and so the way in which we look at the 
bill isn't is it better, is it--does it allow us to achieve our 
stated objectives of safe chemicals in the United States. And 
in that respect, under that standard, which is the way I am 
attempting to look at it, I think that there are some 
shortcomings, as we heard from Senator Vitter, that I would be 
happy to talk about as well.
    Mr. Shimkus. Many witnesses have testified before our 
committee on the strengths and successes of existing TSCA, 
Section 5, provisions for new chemicals, and new uses of 
existing chemicals. Notwithstanding Senate 1009 makes changes 
to Section 5, do you consider these changes appropriate?
    Mr. Jones. I think it is surprising to most people that we 
do not need to affirmatively determine safety before a chemical 
enters the market, so I think that that change is an important 
one, that the Agency affirmatively say, yes, this chemical is 
safe before it enters the market.
    Mr. Shimkus. Could these changes negatively impact 
innovation in the United States?
    Mr. Jones. When people talk about innovation, which we are 
very sensitive to at EPA and try to facilitate it, I don't 
think they think of it as innovation of unsafe things. So I 
don't view a requirement that the Agency affirmatively 
determine something meets a safety standard as impacting 
innovation in a negative way. I actually think it will 
facilitate innovation, because innovation should be around safe 
things.
    Mr. Shimkus. Right. I appreciate that. Further, some 
witnesses have talked about EPA needing more information on 
chemicals. Section 4 of Senate 1009 provides the EPA authority 
to order development of data and information on chemicals. Is 
this a tool the Agency currently has under Section 4 of TSCA 
today?
    Mr. Jones. Thanks, Mr. Chairman. That is actually one of 
the real highlights of the introduced bill. Right now, the 
Agency, if we wanted a company to generate health and safety 
data for a chemical, we need to go through a rather complex 
rule-making process, which also requires us to make certain 
findings that creates somewhat of a catch 22. We have to have a 
sense that there is a problem before we require the generation 
of this data, and the rule-making themselves can take up to 5 
years, if not longer.
    So order authority, the ability to, without going through 
that elaborate process, is a huge improvement, and it is an 
authority that we have in our pesticides program right now.
    Mr. Shimkus. And you answered it in the last question--the 
prepared questions I have is, order authority would be helpful 
in this venue, as you just testified.
    Mr. Jones. Very much so.
    Mr. Shimkus. Let me ask two other questions based upon your 
opening statement.
    When you say equity concerns, what do you mean?
    Mr. Jones. So sometime, well, actually, whenever you are 
protecting in a regulatory decision, or otherwise, it is 
important to understand where the protections occur. It is also 
important to understand where do the costs fall. Are the costs 
being borne by a broad segment of society, a narrow segment of 
society, are the benefits being enjoyed by a very narrow 
segment of society, or a broad segment of society? And so it is 
understanding where the costs and the benefits of a decision 
may fall. Understanding what they are.
    Mr. Shimkus. We kind of need a little more work on that 
because I think, for me, the basic premise is are we producing 
chemicals that are safe. So that I would think a safe chemical 
would be good for everybody in the production process and for 
the consumers, but I will get more briefings on that.
    When you define sensitive populations, what do you mean by 
that?
    Mr. Jones. Well, so that can be an equity concern. So that 
by looking at what we expect that we are going to be looking at 
highly-exposed individuals, wherever they may be----
    Mr. Shimkus. In the workplace or----
    Mr. Jones. In the workplace----
    Mr. Shimkus [continuing]. Outside the fence of the 
facility, is that what we are talking about?
    Mr. Jones. Whoever is highly exposed to the chemical that 
we are looking at, or the use that we are looking at. And we 
also mean it to include are there certain parts of the 
population that may be biologically more sensitive. So a child 
or an infant may have different sensitivities than an adult, an 
elderly individual may have different sensitivities than a 
teenager. And so we look at both the highly exposed, who is 
getting more exposure than the average, and are there 
individuals or groups that may have greater sensitivity than 
the average.
    Mr. Shimkus. Great. Thank you very much. My time has 
expired. The Chair now recognizes Mr. Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair, and thank you, 
Administrator Jones, for your guidance.
    Now, the American people have relied on EPA and the Toxic 
Substances Control Act to protect them against the dangers of 
toxic chemicals, but EPA has faced significant challenges in 
banning or restricting toxic chemicals under TSCA, even in 
cases where the risks are widely recognized and understood, 
such as is the case of asbestos. So EPA's first principle of 
TSCA reform from 2009 reads, and I quote, ``chemicals should be 
reviewed against safety standards that are based on sound 
science, and reflect risk-based criteria protective of human 
health and the environment.''
    Some have suggested that EPA should consider the cost to 
the chemical industry and others when setting a safety 
standard. That would mean that somehow EPA would have to factor 
in the cost of reducing the public's exposure to harmful 
chemicals when determining whether exposure to a chemical is 
safe.
    Would an approach that requires consideration of cost and 
determination of the safety standard comport with EPA's 
principle?
    Mr. Jones. Thank you, Representative Tonko. The 
administration principles speak both to science-based safety 
standards, and then in risk management, the Agency having the 
flexibility to consider other factors such as costs, so that 
when we are looking at how to mitigate a risk, those cost 
considerations can play into the ultimate decision making. And 
those concepts are both captured in the administration 
principles.
    Mr. Tonko. So based on science and cost?
    Mr. Jones. That is right.
    Mr. Tonko. We are looking at both. Historically, TSCA has 
applied an unreasonable risk standard. This standard has been 
interpreted to require cost consideration in setting standards, 
and it was one of the key problems that led to the tragic 
failure to phase-out use of asbestos. Is that correct?
    Mr. Jones. I think that not just in the unreasonable-risk 
standard itself, but many of the other requirements within 
Section 6, including the least burdensome requirement. Those 
two phrases, and a lot of other language around it, required 
what I would consider to be paralysis by analysis. So much 
analysis, you could never actually finish the work. And those 
conspired to get in the way of EPA in the asbestos context, and 
I would argue since then of being effective with Section 6.
    Mr. Tonko. So the bill we are considering today continues 
to use the legal standard of unreasonable risk. I am concerned 
that continuing to use this standard invites the use of the 
traditional interpretation which leaves EPA, as you made 
mention, paralyzed. Is this a fair concern?
    Mr. Jones. It is interesting, Congressman. There are a 
number of people in the stakeholder community, and they--in my 
conversations, they don't fall out in terms of, you know, one 
group versus another, but there are some parties who believe 
unreasonable risk can only be read to mean a cost benefit 
balancing. There are others who believe that it is all of the 
language around it that will matter ultimately. And so I think 
it is important to have that dialog to come to consensus so 
everyone agrees, whatever words are being used, there is a 
common understanding.
    That being said, I do believe that 1009 also has other 
language in it, beyond unreasonable risk, that has a similar 
effect as the least burdensome requirement which requires a 
seemingly endless amount of analysis on the part of the Agency 
before we can ever move forward. So I think that that is 
important to address as well.
    Mr. Tonko. And so in your view, we could end up with an 
adequate standard if we make it clear that EPA should abandon 
the historical interpretation of unreasonable risk?
    Mr. Jones. You know, I--interesting--I fall within the 
camp, thinking that the statute can clearly define unreasonable 
risk, but you need to use enough words that you counter the 
case law that exists out there right now, and the way in which 
the term is used within existing TSCA, but it is very important 
that whatever is done, that people agree about what the 
interpretation is, and not be in a position where people look 
at the same two words and think it means two different things.
    Mr. Tonko. So would it be easier to simply use a new 
standard that doesn't have the baggage associated with the 
phrase unreasonable risk?
    Mr. Jones. Well, that would be one way to do that.
    Mr. Tonko. OK. Given the history of litigation under TSCA, 
statutory language on cost consideration and the safety 
standard must be completely clear. I commend the administration 
for its clear principle on this matter, and look forward to 
ensuring that any bill we produce is consistent with the 
administration's position, otherwise we will have a lot of 
explaining to do to the victims of asbestos and other toxic 
chemical exposure.
    There is also a lot of talk about resources, as you talked 
about putting more and more into the standards that need to be 
met and reviewed. In your opinion, where are we at with the 
resource issue in order for the Agency to comply with the 
implementation?
    Mr. Jones. So one of the administration's principles is 
that there be a sustained source of funding for the EPA. Under 
existing funding, we would be limited in how much progress we 
could make in any period of time. We would think that a 
sustained source of funding would involve something above and 
beyond what currently exists for EPA. I think there are some 
models out there we could look to.
    Mr. Tonko. Thank you very much, Administrator Jones.
    Mr. Jones. Thank you.
    Mr. Shimkus. Gentleman's time has expired. Chair will now 
recognize the gentleman from Georgia, Mr. Gingrey, for 5 
minutes.
    Mr. Gingrey. Mr. Chairman, thank you.
    Administrator Jones, I have got--actually I have got four 
questions for you, and I will start.
    Were Senate Bill 1009 enacted tomorrow, what would be the 
status of the regulations or guidance under current law? Would 
EPA need to reissue new regulations for regulatory matters that 
are already settled under current law?
    Mr. Jones. Thank you, Congressman.
    So I believe that existing regulations would carry on as 
they are. I think guidance, we would need to look case-by-case 
to each guidance to see whether or not a new law, such as 1009, 
would require us to make any modifications to conform with a 
new statute. But regulations would carry on as they are 
currently drafted.
    Mr. Gingrey. Great. Thank you. And the second question, how 
could activities currently underway at EPA, as an example, 
identification of work plan chemicals and progress in 
conducting risk assessments of them, be integrated into S. 1009 
in a manner that does not disrupt or delay current TSCA work?
    Mr. Jones. I believe that the existing--introduced Bill 
1009 allows the agency to designate the compounds that we are 
already working on, workplan chemicals and other chemicals for 
which we have prioritized, which are about 80-plus, as high 
priority right from the get go. So right from the beginning, 
they would become high priority chemicals under the current 
draft.
    Mr. Gingrey. In your view, does the knowhow, experience and 
capability of the United States in regulating chemicals compare 
to other nations?
    Mr. Jones. Yes, well, just so you understand, my experience 
includes about 20 years working in the pesticides program and 
then in this capacity as well. Pesticides are chemicals and, in 
the pesticide context, we have a very strong statute that 
requires us to evaluate every chemical and have been able to 
effectively do that, so I think we have some of the best 
knowhow, experience and knowledge in the world as it relates to 
chemicals. I think what we are struggling with in this context 
is a statute that makes it difficult to apply that experience 
to the chemicals under TSCA.
    Mr. Gingrey. And my last question, and I have got, gosh, 2-
1/2 minutes, I may be able to yield back some time.
    The United States is currently exploring a free trade 
agreement, as you know, with the European Union. Do you see any 
potential impact of those trade talks on domestic chemicals 
regulation?
    Mr. Jones. That is a very good question. What I would say 
about that is that my organization and myself will participate 
with USTR, largely through USTR, on those kinds of discussions. 
What we try to do at EPA is to identify areas where there may 
be unnecessary barriers to trade, while ensuring that existing 
health and safety standards in the United States are 
maintained.
    And so sometimes you may identify a barrier, but it is not 
going to get changed because we have domestic laws that would 
prevent it, but there are times when you can identify a problem 
that can be harmonized without changing the domestic safety 
standards in the United States.
    And so that is the sweet spot that we are looking for. 
Whether we will find any in that context is, I think, too early 
to determine, but that is how we will approach the issue.
    Mr. Gingrey. Could this free trade negotiation influence 
chemical risk assessment policy in the United States and should 
it? I mean that is really the meat of the question. They do 
things differently, obviously.
    Mr. Jones. Yes, that is a very good question. The Obama 
administration has been very clear that we are taking a risk-
based approach to chemicals management in the United States. 
That is what we do under existing law, it is what we are 
advocating in a reformed TSCA. I don't see any scenario where 
we would move away from that. It is a pretty core principle of 
the administration. It has also been the principle of the U.S. 
Government for many administrations.
    Mr. Gingrey. Well, that is----
    Mr. Jones. I think it would be kind of unusual for us to 
move away from that.
    Mr. Gingrey. That is very reassuring, Administrator Jones.
    Thank you very much, and I yield back 30 seconds.
    Mr. Shimkus. Gentleman yields back the time. The Chair now 
recognizes the ranking member, full committee, Mr. Waxman, for 
5 minutes.
    Mr. Waxman. Thank you, Mr. Chairman.
    Mr. Jones, thank you for testifying today. I would like to 
explore two issues with you about this bill. One is the issue 
of deadlines associated with effective Agency action, and the 
other is preemption of State requirements.
    Let us start with the deadlines issue.
    You testified that in the last 37 years, EPA has only been 
able to require testing on a little more than 200 of the more 
than 84,000 chemicals listed on the TSCA Inventory. That means 
that not even one percent of chemicals have been tested for 
safety in nearly four decades.
    I think the American people would see this as 
disappointing. They are counting on the Agency to ensure 
chemicals are adequately tested, but this history demonstrates 
that the law is not working the way it needs to.
    That is why, in my view, it is critical that legislation to 
reform TSCA include meaningful deadlines to ensure that 
chemical reviews are completed on a timely basis.
    Does the bill, Mr. Jones, that we are examining today 
adequately address this issue? Will it ensure that there are 
meaningful deadlines to address this huge backlog?
    Mr. Jones. Thank you, Congressman Waxman.
    I don't believe that it does. The bill does require EPA to 
set deadlines, but it gives us unlimited ability to change 
those deadlines. So, in effect, I don't believe as a matter of 
law there are meaningful deadlines in the statute. I will say, 
as you well know from the Food Quality Protection Act which you 
had a big hand in, there were very clear deadlines about what 
EPA had to do. We had to look at all pesticides used on food 
within 10 years, and during a 10-year period we evaluated them 
all, actually, 99 percent, and met the deadline----
    Mr. Waxman. Yes. I am interested in that because this 
committee passed that bill. In fact, I worked with Chairman 
Bliley and Chairman Dingell. It was a strong bipartisan-
supported bill. It required pesticide residues on food to be 
safe for infants and children. It included deadlines for 
hundreds of chemicals to be reviewed. And you are in charge of 
both----
    Mr. Jones. That is right.
    Mr. Waxman [continuing]. The TSCA issue and the 1996 law. 
So you have had the experience with deadlines that were very 
concrete. Did it affect the Agency's implementation of the law?
    Mr. Jones. I think it is why we met the deadline. From 1996 
to 2006, we met that deadline for 99 percent of the 10,000 food 
use tolerances in the United States, from 1996 to 2006 under 
TSCA, which has currently no deadlines. We----
    Mr. Waxman. Yes.
    Mr. Jones [continuing]. Didn't evaluate a single existing 
chemical during that----
    Mr. Waxman. Yes.
    Mr. Jones [continuing]. Period of time.
    Mr. Waxman. Well, 400 pesticide chemicals under the Food 
Quality Protection Act over 10 years have been reviewed, which 
complies with all the law's deadlines, and I congratulate you 
for that. At the same time, EPA completed no reviews under TSCA 
because there were no deadlines. I think that speaks very 
favorably for putting deadlines in the legislation.
    Now, let me turn to the question of preemption. Over the 
years, many States have acted to protect the public from the 
dangers of toxic chemicals. They have removed toxic chemicals 
from consumer products, they have banned developmental toxins 
from toys, and they have even worked to regulate chemicals that 
act as powerful greenhouse gases.
    Under this bill, Mr. Jones, EPA is required to determine 
whether a chemical is a ``high priority'' or a ``low priority'' 
for review. And once this determination is made, State rules 
are preempted. Isn't that correct?
    Mr. Jones. New State requirements would be preempted after 
EPA makes a determination a chemical is a high priority or a 
low priority.
    Mr. Waxman. OK. Now, in fact, the California EPA has 
identified dozens of State laws and regulations that may be 
preempted under this approach. But determining something is a 
``high priority'' for review is only the beginning of the 
process. It could take many years for EPA to adequately address 
a ``high priority'' chemical. And without meaningful deadlines, 
we could have important State public health protections 
preempted while Federal action languishes indefinitely. Isn't 
that the case?
    Mr. Jones. That is correct.
    Mr. Waxman. The preemption as you see it is only 
prospectively, so existing laws would not be preempted?
    Mr. Jones. There is--I am sorry. There are actually two 
provisions; one is for existing requirements. Existing State 
requirements are preempted when EPA makes a safety 
determination. A safety determination is just our view of the 
risks of the compound; it is not the regulation of the 
compound. So you could have an existing State requirement be 
preempted once EPA has made a safety determination, but before 
EPA ultimately regulated it.
    Mr. Waxman. And that could be years.
    Mr. Jones. Well, there are no deadlines, so----
    Mr. Waxman. Yes.
    Mr. Jones. Yes, years.
    Mr. Waxman. Well, thank you very much for your testimony 
and your answering these questions. I think it drives us to 
look at this need for a bill with strong deadlines, and get 
this job done.
    Thank you, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time. Chair now 
recognizes the gentleman from Pennsylvania, Mr. Murphy, for 5 
minutes.
    Mr. Murphy. Thank you, Mr. Chairman. Sir, thank you for 
being here.
    First of all, I want to say I am pleased we are having this 
hearing and moving forward with much-needed debate. There are 
some important provisions in the Senate bill to protect public 
health, while allowing companies to continue to innovate, and I 
am supportive of the Federal standard rather than the 
complexity in the 50-State statute. And one issue I want to 
raise is language in here related to articles. The bill says 
imported or exported articles will need to say whether they 
contain high-priority chemicals. This could require an 
extensive review--applied outside of the U.S. for articles we 
import, and this could be an extensive burden so it is 
something we need to look at in the future.
    Mr. Jones, a couple of things in your testimony. On page 5, 
you refer to social benefits. What does that mean?
    Mr. Jones. So how the benefits of the action are captured, 
and as a general matter, they relate to the health benefits 
that are generated.
    Mr. Murphy. And you mention health too. I just wondered 
how--is social different from health?
    Mr. Jones. As a general matter, I don't think that it would 
be.
    Mr. Murphy. OK, I wanted to be clear because that means 
different things to us. So, all right. Also, you referred on 
page 6 to sound science. Certainly, that is something this 
committee advocates a great deal. How do you define sound 
science, however? Is that something that is based upon refereed 
journals from scientists--respected scientists, is that 
something that the EPA puts out, is it something that its 
committees are appointed with political appointees----
    Mr. Jones. Right.
    Mr. Murphy [continuing]. How do you determine sound 
science?
    Mr. Jones. The Agency has actually got a fair amount of 
guidance that it has that describes the characteristics of what 
we want our science to include, which I would be happy to 
provide to the committee. As a general matter though, it 
includes that--we are looking at all the available information, 
and that we are relying on peer review to help make sure that 
our assessment of that science holds up.
    Mr. Murphy. I see. Appreciate it, and I hope we can make 
sure there is wording in the bill that defines that too. Let me 
ask this then, how long would the EPA take to accomplishing the 
following tasks in the Senate bill, assuming adequate staffing 
and funding. This is in S. 1009. First of all, sorting 
chemicals at the high and low priorities.
    Mr. Jones. So the initial cut around that, actually the 
Agency did before this bill was introduced, and that took 
several months to identify perhaps the 250 highest priority 
chemicals. So the sorting activity of finding what we think are 
the highest priorities does not take that long.
    Now, that being said, we were looking at about--a subset of 
about 1,200 chemicals for which there was a meaningful data 
set. At the end of the day, we would be required to sort a much 
larger universe than that, but that being said, the sorting 
activity itself is one that does not particularly take a long 
time.
    Mr. Murphy. OK. How long would it take you to complete the 
first safety assessment?
    Mr. Jones. So we think as a general matter, it is about a 
2- or 3-year process to be doing a chemical safety assessment, 
depending on the complexity of the chemical.
    Mr. Murphy. And how about completion of most safety 
assessments?
    Mr. Jones. Well, the numbers we are dealing with here in--
under TSCA are so extraordinarily large, which is why I think 
that efforts to reform TSCA really focus in on and set some 
priorities so that you are focusing on those things that have 
the potential to have the greatest risk.
    And so, depending on how you want to define most of the 
chemicals, it would certainly inform how one would try to 
answer that.
    Mr. Murphy. So then this begs this question, because it is 
so important that the manufacturers have some important data on 
this too, but how long would it take you to publish the first 
regulations imposing restrictions on a chemical?
    Mr. Jones. So after having a safety assessment and safety 
determination, which we think can happen contemporaneously, it 
would be about 3 years for a final regulation for a chemical 
that had been assessed.
    Mr. Murphy. And how about deciding restrictions for the 
most risky chemicals?
    Mr. Jones. Well, it is about--the--3 years.
    Mr. Murphy. Three years for--then either way?
    Mr. Jones. Yes.
    Mr. Murphy. Can you elaborate a little bit what would go 
into that, making these determinations about your regulations 
of the most risky chemicals?
    Mr. Jones. With respect to what is the assessment like, or 
how do we ultimately determine whether risk management is 
necessary?
    Mr. Murphy. Maybe what the assessment is like.
    Mr. Jones. So the assessment is basically we are going to 
look at all of the data that is available around hazard, 
whether the chemical elicits some kind of an adverse effect in 
animals. Humans being who we are trying to protect, but it is 
usually the laboratory animals that...
    Mr. Murphy. Would you have ongoing communication with the 
manufacturers with this? And I think it is very--it is 
extremely helpful if you have an open communication, not 
surprising them, but open discussions, honest discussions as to 
what the scientific base----
    Mr. Jones. In the last year and a half or so, we have begun 
to do some safety assessments, and we try to make it open and 
available to everyone. I will say manufacturers tend to 
participate more than others, but it is open to everyone. And 
so if they have data that is useful to the safety assessment, 
they are encouraged to bring it to us----
    Mr. Murphy. OK.
    Mr. Jones [continuing]. Make sure that we have it.
    Mr. Murphy. Thank you.
    Mr. Jones. So we will----
    Mr. Murphy. I yield back.
    Mr. Shimkus. Gentleman's time expired. Chair now recognizes 
the gentleman from Texas, Mr. Green, for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman, for holding this 
hearing. It is our fourth on TSCA reform before our 
subcommittee this year, and I am optimistic our committee can 
find a bipartisan path to reauthorization, and we address the 
concerns of most, if not all, of the stakeholders, and I look 
forward to the process.
    I would like to also thank Senators Udall and Vitter for 
joining us this morning earlier, as well as Assistant 
Administrator Jones, for the work they have done to move this 
issue forward.
    Mr. Jones, in your professional opinion, does the safety 
standard in Lautenberg-Vitter strengthen the EPA's ability to 
regulate chemicals over the present safety standard?
    Ms. Jones. Thanks, Congressman Green. I think that there 
are some issues with the way in which the safety standard in 
1009 is drafted, but the principle one that I see is that it 
requires a degree of analysis of the alternatives to the 
chemical that you are focusing on that could find EPA in a 
potentially an endless analytical loop. So that meeting those 
procedural requirements of evaluating all of the alternatives, 
the risks and the benefits of all of the alternatives, may find 
us in a situation where we can't finish on the chemical that we 
are focusing on, and that is actually built into the safety 
standards, so I think that that is the principle problem that 
we see.
    Mr. Green. Well, and I know there are a number of other 
questions. I would hope that we could sit down and work that 
out because, obviously, the EPA is the enforcement agency, but 
we want to make sure the law is both easily dealt with, both 
for everyone involved in it. So I look forward to using our 
resources together to deal with it.
    Are some of the challenging and legal procedure 
requirements encountered under TSCA, in quoting your testimony, 
fixed in the Lautenberg-Vitter Bill? If so, were these 
challenges addressed in 1009?
    Mr. Jones. I think that the issue that was most effectively 
addressed in the Lautenberg-Vitter bill is the inability the 
agency has had to easily require the generation of health and 
safety data. I think that has been the aspect of the bill that 
has most moved the ball forward. As I had mentioned earlier, I 
think that the removal of the least burdensome requirement that 
many focus on under TSCA has instead been replaced by a 
different kind of burdensome requirement, and I think that the 
deadlines--the lack of deadlines will meaningfully impair the 
Agency's ability to succeed in the way that I think that the 
drafters intended.
    Mr. Green. OK. Do you believe the infants, children and 
pregnant women, and other vulnerable populations, would be 
protected more under Lautenberg-Vitter than current law?
    Mr. Jones. The Lautenberg-Vitter Bill does require that EPA 
consider sensitive populations in our safety assessments, which 
is not required under existing TSCA. It doesn't require us to 
consider them in our safety determinations or risk management, 
so there is a movement towards that direction in Lautenberg-
Vitter.
    Mr. Green. Under current law, can you explain what happens 
when a new chemical comes on the market? Does the manufacturer 
need EPA OK first?
    Mr. Jones. They need us to not say no. So they don't need 
us to affirmatively say yes, they need us to not say no. And 
the Lautenberg-Vitter Bill rectifies that by requiring EPA to 
affirmatively say yes.
    Mr. Green. OK. And you find--if--do you have to find that a 
chemical is safe before allowing it on the market?
    Mr. Jones. We are not required to make that finding.
    Mr. Green. OK. Would the Lautenberg-Vitter Bill address 
that issue?
    Mr. Jones. Yes, that is----
    Mr. Green. OK. How would S. 1009 change current law that 
protects confidential business information, and I know we have 
dealt with this on our committee a lot of times. Is it--would 
it require companies to refresh their requests for information 
protection?
    Mr. Jones. The principle change is that it would allow EPA 
to share confidential business information with State, local, 
emergency response officials, which is currently prohibited.
    Mr. Green. OK. How does it meet--make sure that the 
government officials, including States, get access to the 
needed information while still protecting those business 
secrets from competitors?
    Mr. Jones. So----
    Mr. Green. Is that protected in 1009?
    Mr. Jones. That is right. It would require the recipient, 
the State or local responder, to agree to maintain the 
confidentiality before receiving the information.
    Mr. Green. Some of the witnesses that will follow you 
suggest EPA cannot get information to prioritize chemicals, yet 
I noticed new Section 4(e)(3)(B) allows EPA to ask the public 
for information that is reasonably ascertainable. Does that 
section allow EPA to collect information that is reasonably 
ascertainable to make prioritized--prioritization decisions?
    Mr. Jones. It does, but there is also a provision that 
allows us to require the manufacturers to generate the data 
without going through a rule-making activity.
    Mr. Green. OK. And again, Mr. Chairman, I am out of time 
but I look forward to us working with EPA and the drafting, and 
to make sure we know we are all on the same page, literally.
    Thank you for your time.
    Mr. Shimkus. Gentleman's time expired. Chair now recognizes 
the gentleman from Ohio, Mr. Latta, for 5 minutes.
    Mr. Latta. Well, thank you very much, Mr. Chairman. Thanks 
for holding this hearing this morning, and thank you very much 
for being here. We really appreciate your testimony, and the 
discussion that we are having today.
    Just again to kind of--where I am coming from. I represent 
a district that has 60,000 manufacturing jobs, and it is also 
unique in that I also represent the largest number of farmers 
in the State of Ohio. So I have parallel things going on out 
there. And so when I am out at home and this issue comes up, 
people really want to know what is happening in Washington, and 
especially where EPA would be going.
    And if I could ask you just a couple of questions real 
quickly. One is, do you believe that the categories that this 
bill creates for new chemicals will or could negatively impact 
specialty chemical manufacturers?
    Mr. Jones. The new chemical provisions, Congressman, is 
that what you are---
    Mr. Latta. Right.
    Mr. Jones. I don't believe so. I believe that we will be 
able to make decisions in a timely manner under the Lautenberg-
Vitter bill on new chemicals.
    Mr. Latta. And again, could you define that timely manner?
    Mr. Jones. So the current requirement is that we evaluate 
compounds within 90 days. If we see a problem, we need to 
inform the submitter. Under the Lautenberg-Vitter bill, that 90 
days remains. We have the ability to extend it by 90 days or 
two periods of time, but it shouldn't exceed another 90 days. 
So we are still talking about very short periods of time for 
our review of new chemicals.
    Mr. Latta. OK. And can you also discuss EPA's confidential 
business information improvements, and how are those working?
    Mr. Jones. So we are working very hard to do what I think 
of as the government's role as it relates to confidential 
business information, which is to ensure that we are asking the 
question, is this claim eligible for confidential business 
information treatment. Historically, we have been somewhat 
passive which, if someone had asserted it, we basically would 
just accept that. We are now doing our part, which is to make 
sure that an assertive claim actually meets the statutory 
criteria around that. And over the last several years, we have 
successfully removed over 1,000 claims that have been made just 
because they were not warranted by the statute, or the 
manufacturer, when they went back and looked at their files, 
they didn't think the claim was necessary anymore. So some of 
it has been us doing more work, some of it has been us working 
with the manufacturers to ensure that they were keeping their 
files accurate related to their CBI claims.
    Mr. Latta. And also when you reviewed the bill, would those 
improvements be consistent with the bill?
    Mr. Jones. Generally, they would be. There is a 
grandfathering-in of CBI claims that--one that was made before 
the bill would pass would be considered to be CBI that would 
potentially impact some of this cleanup effort that I am 
referring to.
    Mr. Latta. OK. And also, how do you believe the 
coordination has been between the EPA and the TSCA Interagency 
Testing Committee?
    Mr. Jones. So historically, it has not been particularly 
active, in that other agencies are not big users of that 
committee, whereby they are able to ask us to generate health 
and safety data for their purposes. The bill allows that 
activity to continue in the future. It would be interesting--I 
really can't predict how much other agencies would be feeling 
more empowered to ask EPA to use its authorities to require 
companies to generate health and safety data for their 
purposes, but it is definitely an authority in the Lautenberg-
Vitter Bill.
    Mr. Latta. OK. And finally, if I could, I know there have 
been some questions that other members have asked about how you 
have defined certain words that have--that were in your 
testimony. On page 4, you talk about that, as stated in the 
principles, legislation provides the EPA with authority to 
establish risk-based safety standards. How would you define 
that risk-based safety standards? Would you see the 
stakeholders being involved, how would you see--come to that 
definition?
    Mr. Jones. So we would definitely involve stakeholders in 
that--I will give a few examples based on implementation of 
other statutes. The EPA would consider, for a chemical that was 
a quantified carcinogen, that the calculated risk of that 
compound not creating more than a 1 in a million chance of 
increasing cancer risk to be a health-based safety standard, 
where we have identified in a quantifiable way in that case the 
level at which we believe is protective, based exclusively on a 
health and safety consideration. So that would be an example of 
one. It doesn't mean under this bill we would say that the 
number, but we would include dialog with stakeholders to say, 
here is an example, do you think this is the appropriate 
health-based safety standard? Should it be 1 in a million, 1 in 
100,000, 1 in 10 million, before we ultimately came down on 
what we thought was the appropriate health-based safety 
standard.
    Mr. Latta. Well, thank you very much. And, Mr. Chairman, I 
see my time has expired, and I yield back.
    Mr. Shimkus. Gentleman yields back his time. Chair now 
recognizes my colleague from Colorado, Ms. DeGette, for 5 
minutes.
    Ms. DeGette. Thank you very much, Mr. Chairman. Mr. Jones, 
we appreciate you coming today. And, Mr. Chairman, I really 
appreciate you holding this hearing. We have been hammering 
away at this for some number of years, and I actually think, 
with the Senate bill and with this committee's efforts, we may 
be productive. So, yes, let's keep our fingers crossed.
    Mr. Jones, one thing we have been talking about is one of 
the problems with the current act is that roughly 60,000 
existing chemicals were grandfathered-in in 1976, and as you 
testified, there is no criteria to trigger an independent EPA 
review of an existing chemical. So under the Senate bill, all 
the existing chemicals in commerce would be identified and 
prioritized for further evaluation. I want to talk to you 
about--a little bit about that this morning.
    I think given the number of chemicals that are out there, 
and the subset of chemicals that are actually used in commerce, 
we all support prioritizing EPA action that might pose a 
serious risk, but in order for prioritization to work, EPA 
needs to have the information to make the informed decisions on 
how to prioritize it.
    So as I understood your answers to Mr. Green's questions, 
for existing chemicals, if the EPA wants to trigger some kind 
of a review, they have got to promulgate a rule before they do 
that, is that right?
    Mr. Jones. Under current law, that is correct.
    Ms. DeGette. Yes, and then under--as what--1009 what would 
happen would be, as a threshold, the EPA would be directed to 
review the safety of all existing chemicals in commerce, is 
that correct?
    Mr. Jones. That is correct.
    Ms. DeGette. And so that sounds good, but if the EPA is 
going to review all of those chemicals, they are going to need 
to get a lot of data that they don't currently have. Is that 
right?
    Mr. Jones. That is correct.
    Ms. DeGette. And so I guess what I want to ask you is, 
under the current drafting of S. 1009, is there a minimum set 
of information the EPA will have for each chemical so they can 
decide how to review and prioritize it for action?
    Mr. Jones. We think that we will very likely tailor the 
data that we are interested in having for a safety assessment 
based on some of the characteristics of the chemical. So, for 
example, chemicals that are persistent bioaccumulative and have 
some toxicity, we would require a lot more data for, health and 
safety data, than for a chemical which our--the evidence that 
we have based on models that we used, predicted it as likely to 
be of lower toxicity. So we would probably tailor the data we 
would like to see for our assessments based on characteristics 
that we know.
    Ms. DeGette. Now, in the bill itself, is there actually any 
standard set for the data that you would use or obtain, or is--
would--are you just left to decide that for yourselves?
    Mr. Jones. The bill as drafted gives the Agency quite a bit 
of discretion as to what data it would want to compel 
generation of.
    Ms. DeGette. And does it lay out what criteria the Agency 
would use to decide which--or--you see what I am saying? It is 
like there are so many chemicals out there----
    Mr. Jones. Yes. It gives the criteria for the order in 
which we prioritize things as high.
    Ms. DeGette. OK. Now, S. 1009 also changes the requirements 
for entry into commerce of new chemicals. It is my 
understanding that maybe as 80 or 90 percent of new chemical 
applications currently contain no data on potential impacts to 
human health. Is that correct?
    Mr. Jones. That is correct.
    Ms. DeGette. So under current law, the EPA wouldn't be 
making an affirmative decision about a new chemical's safety 
before it enters the market, is that correct?
    Mr. Jones. That is correct.
    Ms. DeGette. Under S. 1009, the EPA must make a decision 
about the likely safety of a new chemical, is that right?
    Mr. Jones. That is correct.
    Ms. DeGette. But will the EPA have data about the new 
chemicals to accurately make the safety determination?
    Mr. Jones. So we expect that there will be, for many 
situations, the models that we use to predict hazard will allow 
us to make such determination--likely to meet the safety 
standard determination for many chemicals. There will be some 
chemicals which, when we use predictive models, they are going 
to raise enough concerns that we are going to want to see 
health and safety data generated.
    Ms. DeGette. OK. Well, I appreciate you--I appreciate that 
answer, but I am a little concerned because it seems a little 
bit vague, and I think that is one of the areas of this bill we 
can really work on, is setting clearly what data the EPA needs 
to be given for certain classes of chemicals. So I look forward 
to working with you and also with the committee on those 
issues.
    Thanks.
    Mr. Shimkus. Gentlelady's time has expired. The chair now 
recognizes the gentleman from West Virginia, Mr. McKinley, for 
5 minutes.
    Mr. McKinley. Thank you, Mr. Chairman, and again, thank you 
for the--once again continuing this discussion.
    Mr. Jones, two questions for you. The first is, will, in 
your analysis of the Vitter bill, did--will it require an 
expansion, will it need more FTEs, anything along that line to 
be able to carry out the new mission?
    Mr. Jones. In the absence of additional resources, the 
number of chemicals we would be able to move through the 
process will definitely be meaningfully constrained.
    Mr. McKinley. Will be what?
    Mr. Jones. Meaningfully constrained. The number will be 
smaller than I think most people would hope.
    Mr. McKinley. So the answer to the question, are we going 
to have--are you going to need more FTEs?
    Mr. Jones. It is likely that additional FTE would be 
necessary to achieve the kind of numbers, I think, that 
generally people would expect from the Agency.
    Mr. McKinley. OK. Secondly, is the--some of the criticism 
of the existing bill and the Vitter language is about the 
burden placed on EPA to express the need before they make the 
request to the companies to fulfill that assessment. Can you 
share with us the value of why the EPA should make the first 
step in determining the need?
    Mr. Jones. The need for health and safety data?
    Mr. McKinley. Yes. Right.
    Mr. Jones. So the Agency is pretty well equipped, and we 
are also coming at it with the simple desire to understand 
health and safety. So we have got both the--well, largely, we 
have the scientific expertise to be able to judge whether or 
not health and safety data is necessary, and what kind to make 
a safety determination.
    Mr. McKinley. So if--again, I--that--be more specific with 
that. So I am just trying to understand that. So--because some 
are saying they don't think you should make the first step, the 
company should provide that chemical and their product data. Do 
you think it best for you to first make the--make your own 
analysis to determine that there is still a need----
    Mr. Jones. The----
    Mr. McKinley [continuing]. Before you ask them to produce 
it?
    Mr. Jones. Yes, I think that we have got a pretty 
sophisticated way of understanding where we need information 
and where we don't. And as I was answering the question to 
Congresswoman DeGette, we are able to do it in a way that is 
tailored to the chemical and the issues that the particular 
chemical expresses. And so I think in many ways, it can be the 
most efficient way for the Agency to identify we need this data 
but not that data.
    Mr. McKinley. OK. And maybe to add one last in the little 
time I have left. I think I heard it--the question but I wasn't 
sure I heard the answer again, and that is, with the passage of 
this, this--you really think that this is an improvement for 
health safety and for children, pregnant women, we--on and on 
and on. This is going to be an improvement over what we have 
now?
    Mr. Jones. Well, as I said in answer to the first time that 
question was asked, that the way in which we are trying to 
think about it is does this give us the tools to ensure safe 
chemicals in the United States, and as I pointed out, I think 
that there are a number of areas which are meaningful 
deficiencies that would need to be addressed before we could 
say that this bill will give us the tools we need to ensure 
safe chemicals in the United States.
    Mr. McKinley. So--and the bottom line here, you think this 
really is an improvement?
    Mr. Jones. I think it needs some improvement.
    Mr. McKinley. OK, it still needs to be worked. OK, and I am 
OK with that, but I just wanted--are we--if it is moving in the 
right direction to make sure that it is an improvement over 
what we have now.
    Mr. Jones. There are aspects that are moving in the right 
direction, and there are aspects that are not.
    Mr. McKinley. OK. Thank you very much.
    Mr. Shimkus. Will the gentleman yield? Will the gentleman 
yield?
    Mr. McKinley. Yes.
    Mr. Shimkus. Let me follow up on just two quick questions.
    Part of the 85,000 list of chemicals, there are some that 
are no longer in commerce or in manufacturing processes, and 
those--you could be--probably easily drop them off, isn't that 
true?
    Mr. Jones. Well, interestingly, we would have to go through 
a process to drop them off, and as a general matter, 
manufacturers, even if they are not making the chemicals, like 
them on the list because at some point in the future, they want 
to bring that into their production, for whatever marketing 
reasons they have, they can do that if it is not on the list.
    Mr. Shimkus. But under the new law, if passed as-is, they 
are still going to be looked at then. The whole idea is to get 
through this list in some time.
    Mr. Jones. Under 1009, it actually creates two lists. One 
is an active list, things that are actively in commerce, and 
one is an inactive list, things that are no longer in commerce.
    Mr. Shimkus. Right.
    Mr. Jones. Manufacturers can go from inactive to active by 
noticing EPA.
    Mr. Shimkus. Let me ask another question. Is there a 
difference between chemicals that go actually into consumer 
consumption or handling, versus chemicals that are involved 
just in the manufacturing process that stays within the walls 
of a facility?
    Mr. Jones. The way in which we evaluate them is very 
different, but we have jurisdiction over both. We evaluate them 
very differently. One is, we are looking at the exposures that 
a consumer would get, and the other, we are going to look at 
what happens in the workplace to the worker if the worker is 
exposed.
    Mr. Shimkus. Great, thank you. And the Chair now recognizes 
the gentlelady from California, Mrs. Capps, for 5 minutes.
    Mrs. Capps. Thank you, Mr. Chairman, and thank you, Mr. 
Jones, for your testimony here and your statement here, and 
your position at EPA.
    Many stakeholders have raised concerns about the need to 
protect vulnerable populations. That is my concern in talking 
with you during my 5 minutes. Any system needs modernization. 
TSCA, I am sure, can use it too, but an essential component is 
to really address how vulnerable populations will be affected.
    Any reform, for example, of this statute that fails to 
adequately protect children or pregnant women would be a 
terrible failure. Vulnerable populations do include infants and 
children, the elderly, the disabled and anyone living in a 
close proximity to a chemical facility. The National Academies 
of Science, in their 2009 report called Science and Decision--
Decisions, recommended that vulnerable populations should 
receive special attention at every stage of the risk-assessment 
process. S. 1009 makes only two references to subpopulations. 
Vulnerable populations are not addressed in the safety 
standard, and are not required to be considered in the safety 
determination. This strikes me as a glaring oversight. Even 
using the problematic terminology of this bill, a chemical 
should not be deemed to meet the safety standard if it poses an 
unreasonable risk to a vulnerable subpopulation.
    So I have a couple of yes/no questions to ask you, because 
I hope you agree with this. Do you think a chemical that poses 
an unreasonable risk to a subpopulation should be able to pass 
the safety standard under a reformed TSCA?
    Mr. Jones. No.
    Mrs. Capps. And to follow up, as a general matter, should a 
chemical that poses a serious or substantial risk to a 
vulnerable subpopulation be considered acceptable under a 
reformed TSCA safety standard?
    Mr. Jones. No.
    Mrs. Capps. Well, I thank you for that. That puts you on 
the record there. Turning now to the risk-management decisions 
that will be taken when a chemical does not meet the safety 
standard under a reformed TSCA.
    Mr. Jones, should risk-management actions under a reformed 
TSCA ensure that unreasonable risks, including those to 
vulnerable populations, are addressed?
    Mr. Jones. Yes.
    Mrs. Capps. And should risk-management actions under a 
reformed TSCA ensure that a serious or substantial risk to a 
vulnerable population should be addressed?
    Mr. Jones. Yes.
    Mrs. Capps. Partly in answer to a previous question--well, 
let us put it this way: The Senate made some progress in their 
legislation. Are there some areas that we could improve upon 
that you would like to highlight in less than 2 minutes?
    Mr. Jones. Sure. Thank you for that. And I am only in this 
position because of the fine education I got at the University 
of California, Santa Barbara. And thank you for----
    Mrs. Capps. Thank you very much. That doesn't hurt your 
standing in my eyes.
    Mr. Jones. So we think that the kinds of improvements that 
are necessary to get this bill to the place where we think it 
gives us the tools we need to ensure safe chemicals in the 
United States are along the following. That there need to be 
meaningful deadlines on the Agency, that the safety standard 
should be clear and understood by all parties as to being a 
risk-based safety standard. The kind of analysis that we have 
gotten bogged down because of the least burdensome requirements 
under existing TSCA shouldn't be replaced with additional 
analysis that does not add a lot of value to the ultimate 
decision making. And I also think that there needs to be a 
balanced approach to preemption, which I currently don't think 
the bill achieves.
    Mrs. Capps. Thank you. Thank you very much for that 
summary.
    Mr. Chairman, I am a strong supporter of reforming TSCA, in 
addition to wanting us to pay special attention to this 
particular witness, just because where he received his 
education.
    I do have some serious concerns about the bill before us 
today. The Senate language does not require the protection of 
vulnerable populations in the safety standard or in the risk-
management decisions, and I think that is a fundamental flaw 
that would affect each of us in our congressional districts. 
Any TSCA reform bill this committee considers should ensure 
that the most vulnerable among us are protected, and this 
protection is real and effective. So I look forward to having 
this committee continue to work on this particular issue.
    Thank you.
    Mr. Shimkus. I thank my colleague. I--just to note that 
right now, there is no--in current law, there is no vulnerable 
population comment, but in the Senate bill I think it is listed 
at least twice. So there is some movement in the--in that 
direction.
    The Chair now recognizes the gentleman from--I am trying to 
find here, gentleman from Florida, Mr. Bilirakis, for 5 
minutes.
    Mr. Bilirakis. Thank you, Mr. Chairman. I appreciate it 
very much. Thank you for holding this hearing as well.
    I would like to ask a question. Should Congress require a 
minimum number of chemicals to be acted on each year?
    Mr. Jones. That is a great question, Congressman. The 
benefits of having a minimum number of chemicals is that you 
can feel that there is forward progress being made all of the 
time. The downside to it is that, in the absence of meaningful 
resources, you can find the Agency in a situation where it 
can't meet the statutory requirements, or the way in which it 
does so is to by working on easier chemicals, which is not 
really, I think, what the objective is of setting priorities, 
that we would be working on the more complicated, difficult 
compounds first. So there are definitely some pros and cons to 
including a minimum number of chemicals.
    Mr. Bilirakis. OK, thank you. Some question that Senate 
Bill 1009 does not require adequate data to prioritize 
chemicals. Does Senate Bill 1009 give the EPA authority to seek 
additional data and info? How do you read Senate Bill 1009?
    Mr. Jones. So that is a good question as well. I think that 
there is a disagreement amongst some of the people reading the 
bill as to whether or not we have the ability to require the 
generation of health and safety data if it is not already a 
high priority chemical. We read the bill to allow us to be able 
to do that. I think the fact that there are people reading the 
same words and coming to a different answer to that question is 
another example where it might be useful to seek clarity on 
that point.
    Mr. Bilirakis. All right, thank you very much. Next 
question, would Senate Bill 1009 allow the EPA to assess the 
safety of chemicals that are persistent bioaccumulative and 
toxic, and require risk management for those that fail to meet 
the safety standard?
    Mr. Jones. The bill allows the Agency to do that, but--not 
create the explicit requirements to give any priority to 
persistence or bioaccumulation, but it certainly allows the 
Agency to evaluate them and take risk management if warranted.
    Mr. Bilirakis. Thank you. Thank you for your response.
    And I yield back.
    Mr. Shimkus. Gentleman yield to me----
    Mr. Bilirakis. Yes.
    Mr. Shimkus [continuing]. For a quick--so risk is defined 
as hazard plus exposure. Is that how you define it?
    Mr. Jones. Hazard times exposure. Yes, hazard times 
exposure.
    Mr. Shimkus. So define for me the difference between 
substantial and unreasonable. So if you have substantial risk, 
OK, we know what risk is, we know what unreasonable risk, so 
what are--I guess that is two adjectives, but I mean what is 
the difference between those two?
    Mr. Jones. I actually think it really depends on all of the 
other words that are used in the statute to describe what the 
Agency is required to find. I don't believe unreasonable risk, 
those two words by themselves, mean that the Agency has to 
conduct a cost benefit analysis. I do believe the courts have 
said those words used in conjunction with a lot of other words 
create the requirement of a risk benefit balancing, but the 
words themselves I don't think mean, to the layperson or 
anybody who can read the dictionary, means cost benefit. But it 
is a lot of the words that are used in conjunction with the 
actual standard that, I think, gives it its full meaning.
    Mr. Shimkus. Great, thank you. The Chair now recognizes the 
gentleman from California, Mr. McNerney, for 5 minutes, who has 
been waiting very patiently.
    Mr. McNerney. Waiting and listening, Mr. Chairman. Thank 
you.
    Mr. Jones, in your testimony, I believe you stated that S. 
1009 requires affirmative standards. Would you please elaborate 
on that, especially regarding enforcement, how those 
affirmative standards would be enforced in the new law?
    Mr. Jones. Thank you. That comment reflects specifically to 
the new chemicals provision in 1009. Under existing law, the 
Agency, when a new chemical is submitted, we have 90 days to 
evaluate it, and only if we identify a problem are we able to 
work with the manufacturer to prevent it from being introduced 
into commerce. Under S. 1009, it requires the Agency to make an 
affirmative finding of meeting the safety standard before the 
manufacturer can move that chemical into commerce.
    Mr. McNerney. OK. That is a good thing, I think.
    Mr. Jones. I would think so, yes.
    Mr. McNerney. You also stated that in S. 1009, the language 
would make it as difficult as the unreasonable risk or least 
burdensome language in TSCA to enforce rules as it has been for 
TSCA with asbestos. Can those--can that language be modified in 
your opinion to remove some of those barriers, and make it 
reasonable to enforce?
    Mr. Jones. For any of the issues that we have identified, 
the devil is always in the details, but I think that changes 
could be made in a way that would not send us into an endless 
amount of analysis before we could ultimately make protective 
decisions.
    Mr. McNerney. Well, who would you recommend that the 
committee consult with on that language?
    Mr. Jones. I think it is important to have all 
stakeholders. I mean obviously you can't have literally all 
stakeholders, to be bringing all people to the table, as I 
think you get the best outcome and you can get a common 
understanding of what--the words you are using are the words 
everybody believes that they mean.
    Mr. McNerney. OK. Well, to change the subject a little bit. 
The European Union has made significant progress on some of the 
60,000 chemicals that have been grandfathered. Is that correct?
    Mr. Jones. The European Union, which has a very different 
model, has definitely made some progress in the universe of 
chemicals sold in Europe.
    Mr. McNerney. Would S. 1009 allow you to--the EPA to 
collaborate with the European Union on identifying some of 
those, and classifying some of those chemicals?
    Mr. Jones. We definitely would be able to collaborate. I 
think the fundamental problem we and the Europeans are dealing 
with as it relates to that collaboration is they have required 
manufacturers to generate a lot of health and safety data, and 
the European Union under their rules cannot share that 
information with us. They have to have the company's 
permission. The companies find themselves in a situation where 
they negotiated agreements across multiple companies, and 
unless everybody agrees, they can't give us the information. 
And so I am hard-pressed to know what U.S. domestic law could 
do to actually break that log jam. I think we have to----
    Mr. McNerney. OK.
    Mr. Jones [continuing]. Work something out, not under law, 
but with manufacturers to figure out how to get access to that 
treasure-trove of health and safety data.
    Mr. McNerney. OK. That is a good answer. Regarding 
resources, if S. 1009 becomes law, would the Agency need 
greater resources to carry out the various rule makings laid 
out in the bill?
    Mr. Jones. I think where we would run into issues with 
expectations, expectations of, I assume, the Congress and 
certainly I think of the American public, is that the number of 
assessments we would be able to do under existing resources 
would probably, for most people, be considered to be 
inadequate. So to change that, we would need resources. I do 
think there are models out there that involve the industry 
financing that are used in the FDA and our pesticides program 
that are worth looking at.
    Mr. McNerney. So in S. 1009, there aren't any dedicated 
funding sources?
    Mr. Jones. No, there are not.
    Mr. McNerney. So that could be interpreted as one of the 
weaknesses in that law--in that proposed law?
    Mr. Jones. One of the administration principles is there be 
a sustained source of funding, and that is not addressed in the 
bill.
    Mr. McNerney. OK, thank you.
    Mr. Chairman, I yield back.
    Mr. Shimkus. Gentleman yields back his time. The Chair now 
recognizes the gentleman from Pennsylvania, Mr. Pitts, for 5 
minutes.
    Mr. Pitts. Thank you, Mr. Chairman.
    Mr. Jones, in our first hearing, witnesses stated that EPA 
needed specific statutory authority for chemical 
prioritization. Is that important?
    Mr. Jones. Thank you, Congressman. I think it is important 
because there are so many chemicals in commerce that it is 
important to direct the Agency to focus on those that may 
present risks earlier in the process rather than later. And in 
the absence of that, you could see wily bureaucrats, of which I 
am one, working on easy things because we can do a lot of easy 
things. So I think being directed to work on those things that 
are the highest priority is a very important thing when you 
have a universe that big.
    Mr. Pitts. Does S. 1009 require that chemicals be 
prioritized?
    Mr. Jones. Yes, it does.
    Mr. Pitts. Does S. 1009 allow EPA to consider potentially 
vulnerable subpopulations in making decisions to prioritize 
chemicals for review, and in subsequent safety assessments and 
determination?
    Mr. Jones. In safety assessments, we are required to 
consider vulnerable populations. That is not required of safety 
determinations or--in the priority setting. We are not 
prohibited, but it is not required for the other two.
    Mr. Pitts. S. 1009 lays out framework requirements for 
prioritizing existing chemicals, gathering, testing data and 
information, conducting safety assessments and making safety 
determinations. Does a reformed TSCA need to set these 
requirements out as four separate steps?
    Mr. Jones. The bill has a lot of what we were referring to 
as framework requirements, we think we counted a total of about 
17. I think it is possible to collapse a number of the 
frameworks down, and not lose some of what the drafters 
intended. Most were drafted--making it more streamlined and 
straightforward.
    Mr. Pitts. S. 1009 has provisions requiring that EPA sort 
chemicals for review as either a high or low priority. Should 
there be more categories than just high or low priority?
    Mr. Jones. I don't see a huge amount of value in adding 
another category other than high or low.
    Mr. Pitts. Are you concerned that you cannot seek judicial 
review of the prioritization screening decisions?
    Mr. Jones. That is a very good question. I think it runs 
counter to generally how we run the government, that an Agency 
action that ends all other downstream consequences is unable to 
be challenged. So a high-priority decision--when we do that, 
downstream things have to happen. And so it doesn't bother me 
that that is not subject to judicial review, because the 
downstream thing ultimately will. A low priority under 1009 
actually stops all action. EPA at that point is done. No more 
work. Stop. That to me is a final Agency action, and although I 
would like to think all of our final Agency actions shouldn't 
be--no one should be bothering us about them, I--as a matter of 
good government, I think that it is important to allow people 
who disagree with a final Agency action to seek review of that 
in an appropriate judicial proceeding. And so I think that 
having a law not be subject to judicial review is not a good 
place for the government to be in.
    Mr. Pitts. And managing the many chemicals that you need to 
review, how long do you expect this process to take, both to 
prioritize and schedule for assessment?
    Mr. Jones. The prioritization process I think will happen, 
the initial one, very quickly. The initial assessments will 
happen within a couple of years. I think it will be many years 
before we have evaluated all the high priority chemicals.
    Mr. Pitts. OK, thank you, Mr. Chairman.
    Mr. Shimkus. Gentleman yields back his time.
    Chair now recognizes the gentleman from Louisiana, Mr. 
Cassidy, for 5 minutes.
    Mr. Cassidy. Mr. Jones, I apologize if someone else has 
asked. I had to step out.
    To prove safety by the first--to prove that something is 
not at risk, you have to prove a negative. It is very difficult 
to prove a negative. How do you prove a negative?
    Mr. Jones. So we rely on analytical tools that often 
include data, often include models. So if something does not 
express hazard, it is impossible for it to have risk, if 
something doesn't----
    Mr. Cassidy. Now, that is--now, let me ask, because we had 
a hearing about the risk of something for breast cancer. It is 
a big concern of mine. My wife is a breast cancer surgeon, and 
I am a physician, so we were on a vacation so we pulled down 
the literature, and there is a body of literature for this 
particular chemical, that it could cause breast cancer, but--
and somebody did a regression analysis and goes, you have got 
to be kidding me. There is obesity, alcohol, cigarette use, 
family history, and here is a very marginal effect that may or 
may not. But the witness was passionately and quite emotionally 
declaring that this particular chemical had an impact upon 
breast cancer.
    So I guess I would come back to no risk at all may be in 
the eye of the beholder, right, or of the interest group or 
whatever. In that situation, what does this law allow you to 
do?
    Mr. Jones. Well, it would require us to assess the risk of 
that chemical, and make a determination as to whether or not 
that risk met a safety standard.
    Mr. Cassidy. I guess what I am after, the safety standard 
seems a nebulous thing to me.
    Mr. Jones. So--yes.
    Mr. Cassidy. And so, again, this advocacy was just so 
passionate in their emotion, even though the retrogression 
analysis showed that the effect was nonexistent or minimal, if 
it existed. It just couldn't be teased out. So would that--
would this nebulous standard say, listen, best science shows 
that it is obesity, family history, alcohol and cigarettes. 
This marginal effect we can't prove so we move on, or we just 
say, no, we have to say this is not safe?
    Mr. Jones. We have a pretty long record of how we calculate 
risk, and what we view to be risks that are beyond negligible. 
They involve using standards such as the increased lifetime 
cancer risk of a substance, they include calculations that we 
use for other kinds of effects where we look for a certain 
margin of exposure between the exposure level and when 
adversity occurs, and there is a general understanding about 
how we----
    Mr. Cassidy. So I think, I gather, that industry would be 
able to look at a basically kind of common-law standard, if you 
will, something that this--it isn't nebulous, you are telling 
me, but there is something they could look at and say, below 
this threshold, we know we are OK?
    Mr. Jones. That is correct.
    Mr. Cassidy. Then let me also ask, I was struck once in 
some hearings we had that the EPA's current method of analysis 
does not take into account a threshold effect, that they 
extrapolate all the way down, if we know this level really 
causes damage, but we know at this level it is in the 
environment, and common exposure doesn't cause damage. I am a 
doc, aflatoxin is a great example of something we are all 
exposed to, but it is only above the threshold has a problem, 
EPA, as I gather, does not take that into account.
    Mr. Jones. The vast majority of the chemical assessments we 
do are based on the threshold model that you are describing. A 
relatively small number, in particular, those that are 
carcinogens, where there has not been demonstrated the 
threshold that you are describing, we use the model that you 
are describing. That is a relatively small number of chemicals.
    That being said, we have gotten some advice from the NAS to 
begin to think about how to use models other than the threshold 
model that I just described. But right now, the vast majority 
of chemical assessments that we do rely on the threshold model 
that you are describing.
    Mr. Cassidy. OK, I had a little bit of a different 
impression, so I am reassured regarding that.
    The subpopulation groups also seem to be something which 
is, you know, going to be difficult to define. I know that 
there are always two or three standard deviations out, somebody 
with a genetic predisposition to, fill in the blank. And it may 
be an environmental exposure will fill in the blank. You with 
me? Take type 1 diabetes.
    Mr. Jones. Um-hum.
    Mr. Cassidy. There seems to be a genetic component, but 
some interaction with the environment. How would you ever--it 
almost seems like if you really chase that out, you are always 
going to find some subpopulation with a genetic exposure which, 
combined with the environmental, is problematic.
    I know you have thought about this. What are your thoughts?
    Mr. Jones. So there are either a couple of things that we 
have--I like to give the example of what we have done in our 
pesticide program, which is a similar requirement around 
significant, highly exposed and vulnerable populations. We have 
literally identified the populations that we look at in terms 
of age, and we look at children at six-month intervals when 
they are very young, and then we go to 1-year intervals, and 
then we go to, you know, women of childbearing age and those 
over 50. And we also do it by race and ethnicity. And so we 
have defined them, we have taken comment on that, and it is 
then widely understood here are the populations below the 
general population that we are going to look at for every 
assessment that we do.
    I would expect that we would do something similar here. 
They may not be the exact same subgroups that we would look at, 
but we would go through a process of identifying them and 
asking the public to give us feedback on it. The other thing is 
that we, as a general matter, use an uncertainty factor to 
capture the general variability within the population as it 
relates to intraspecies sensitivity.
    So that tenfold factor we use to try to broadly capture 
that phenomenon. When there is information that leads us to 
believe that for a specific effect, something beyond that 10 is 
necessary, then we use that to inform our assessment.
    Mr. Cassidy. I will finish by saying your testimony is very 
reassuring, but I remember reading the National Academy of 
Science's report on your formaldehyde report, and they really 
felt like the conclusions of the report were not based--were 
not supported by the data which had been amalgamated, thinking 
specifically of tumors in the nasal laryngeal area in rats, and 
yet EPA kind of swore by it.
    So thank you for your testimony, and I yield back.
    Mr. Shimkus. Don't you hate these real smart members of 
Congress who ask these--make us all look bad?
    So last but not least, my colleague from the great State of 
Georgia, Mr. Barrow, for 5 minutes.
    Mr. Barrow. Thank you, Mr. Chairman. Thank you, Mr. Jones, 
for being here today.
    I know that the EPA hasn't yet taken a position on S. 1009 
all together--in its all together, but I want to see if we 
can't draw some comparisons between current law and the 
proposal, and just get some idea where we can find some--for 
example, are there any areas of the bill that, in the opinion 
of the EPA, are better than current law?
    Mr. Jones. Yes. Mandating the Agency evaluating existing 
chemicals is a non-trivial improvement over the existing law. 
That is not something we are required to do right now. Giving 
the EPA the ability to require manufacturers to generate health 
and safety findings, using order authority, is dramatically 
more efficient than the process that we have under the existing 
law. And then the requirement that EPA make an affirmative 
finding for a new chemical before it enters commerce, I think 
is also a pretty significant improvement.
    Mr. Barrow. Flipside, any areas of the proposed legislation 
that in your opinion are worse than current law?
    Mr. Jones. Yes, I will say that the preemption provision is 
dramatically less--I think at the end of the day would be less 
protective than the current preemption under TSCA.
    Mr. Barrow. I am kind of reminded of Lincoln's comment 
about liberty, you know, the sheep praises the shepherd for 
driving the wolf away from his neck, and the wolf condemns him 
for the same act. Clearly, we need a new word of liberty, you 
know, new agreement on what it means. So I want to talk about 
protection in this context, the interplay between Federal and 
State regulations that is a real major policy issue we have to 
deal with.
    One concern that I have is if funding for the big 
regulator, the national regulator, the EPA, is either 
chronically inadequate so that the regulator is malnourished, 
or is highly sporadic as a result of politics, ranksmanship and 
shutdown or what have you. The concern I have is whether or not 
we will have effective regulation if we preempt State, and the 
only regulator who is left on the scene is unable to do his 
job. I have a concern about that, but I also have a concern 
about, you know, the regulator wanting to do its job. You know, 
a regulator that doesn't want to do its job is like going bird 
hunting and having to tote the dog. But a regulator that can't 
do its job is like going bird hunting without the dog. I am not 
sure which is better. Each is equally ineffective as far as the 
customer and the taxpayer is concerned.
    So help me understand, in your experience, what has been 
the benefit of the current regime of dual State and Federal 
regulations on the one hand, and what has been the cost of the 
current regime, and how would you suggest we go forward?
    Mr. Jones. I think the benefit is a good part of why we are 
here; that because the Federal law is ineffective, States have 
stepped into the breach and have been doing the work necessary 
to protect the people in their States, which has created an 
incentive on the part of the industry, in my view, to raise the 
bar of the Federal law so that States don't feel compelled to 
step into the breach, because the Federal Government is 
ensuring the safety of their citizens. I think that is the----
    Mr. Barrow. You described the ideal or optimal role of the 
State regulator as being a pride toward better action, better 
regulation nationwide is how you describe it.
    Mr. Jones. Um-hum.
    Mr. Barrow. As being basically a driving force for 
getting----
    Mr. Jones. I think that they have been the driving force in 
the chemical space that has been basically the only regulation.
    Mr. Barrow. Aren't you--don't you share the concerns though 
of others though that if you do have a nationwide standard, if 
the regulator is malnourished or underfunded, that that could 
be a problem as well, they can't keep up with the demand? So 
you don't want to replace something bad with something that----
    Mr. Jones. No, exactly.
    Mr. Barrow [continuing]. Does not exist.
    Mr. Jones. It is a challenging dynamic that you are trying 
to ultimately achieve, where the absence of action on the 
Federal Government doesn't mean nobody gets protected, that it 
keeps--the potential threat of that happening keeps people like 
me on top of our job, moving the ball forward, which also 
creates the dynamic where the States feel like they don't feel 
like they need to regulate because it is going to be taken care 
of at a national level. And I think that is very----
    Mr. Barrow. We should understand--you can understand that 
even if you are doing a good job at the national level, there 
could be some States you just want to regulate a whole lot 
more?
    Mr. Jones. That absolutely I think would be the case.
    Mr. Barrow. And the problem we have is not the fact that we 
have two regulators in any given one place.
    Mr. Jones. Right.
    Mr. Barrow. We only have 51 regulators as far as the 
country as a whole is concerned. You recognize the challenge 
and burden that is to industry.
    Mr. Jones. That is right, and I think that that is the 
flipside of the--that is why I think it has been so hard for 
people to come together to figure out what is exact--what is 
that sweet spot there. It is untenable to try to sell a product 
in the United States, and you need to meet 51 or 57 different 
requirements. At the same time, you don't want to leave 
everybody unprotected because people here are not able to get 
their job done, or don't have the tools to get their job done. 
And trying to find that sweet spot, I think is very 
challenging.
    Mr. Barrow. Thank you. With my--with that, my time is up.
    Mr. Shimkus. Gentleman yields back his time.
    And I--just a point. I think there are only like four 
States who really have the capability or are involved in this 
space, versus the other ones that aren't. And when we had ECOS 
testifying, many States had no capability to do this intensive 
evaluation. So I just throw that in.
    Mr. Jones, a delightful testimony. I usually don't say that 
very often. Great job. I think you could see from the interest 
by members present that there is a desire to try to get this 
right, and find the sweet spot, and I hope we can continue 
moving forward. You are a great credit to the Agency, and we 
thank you for joining us. And we dismiss you and ask the final 
panel to come forward.
    We would like to welcome the third panel here, and many of 
you have been sitting in the room for a couple of hours now, so 
we appreciate your diligence and we look forward to your 
testimony. I think the first two panels went real well, and we 
look forward to yours.
    So I will just do the introductions as your opening 
statements are called for. It is great to welcome back Cal 
Dooley, former colleague, now President and CEO of the American 
Chemistry Council. Obviously, your full statement has been 
submitted for the record. You have 5 minutes.

    STATEMENTS OF CAL DOOLEY, PRESIDENT AND CHIEF EXECUTIVE 
    OFFICER, AMERICAN CHEMISTRY COUNCIL; ERNEST ROSENBERG, 
   PRESIDENT AND CHIEF EXECUTIVE OFFICER, AMERICAN CLEANING 
INSTITUTE; RICHARD A. DENISON, SENIOR SCIENTIST, ENVIRONMENTAL 
 DEFENSE FUND; DEAN C. GARFIELD, PRESIDENT AND CHIEF EXECUTIVE 
OFFICER, INFORMATION TECHNOLOGY INDUSTRY COUNCIL; ANDY IGREJAS, 
   DIRECTOR, SAFER CHEMICALS, HEALTHY FAMILIES; AND WENDY E. 
  WAGNER, JOE A. WORSHAM CENTENNIAL PROFESSOR, UNIVERSITY OF 
                      TEXAS SCHOOL OF LAW

                    STATEMENT OF CAL DOOLEY

    Mr. Dooley. Thank you, Chairman Shimkus, and Ranking Member 
Tonko, and all the members of the committee. I appreciate this 
opportunity to be testifying on behalf of the American 
Chemistry Council, our member companies, as well as 800,000 men 
and women who work every day in the business of chemistry.
    ACC and our member companies are absolutely committed to 
the modernization and the reform of TSCA that will enhance the 
public confidence in the safety of our chemicals, and allow our 
industry and our customer base throughout the value chain to 
continue to be on the forefront of developing innovations that 
improve our everyday lives.
    You know, some of you were in attendance at a hearing that 
this committee had in 2010 on a bill that was introduced to 
reform TSCA by Congressman Waxman. If you were here at that 
hearing, it was actually one that was fairly contentious, and 
Richard Denison and I were passionate defenders of our 
constituencies, but unfortunate, you know, that contentious 
dialog we had there was a reflection of what--the failure to 
find a common ground or a balanced approach to a comprehensive 
TSCA reform. It is unfortunate over the last few years, even on 
the Senate hearings where Mr. Denison, representing EDF, and I 
have testified, we were also very polarized and very 
contentious in some of our dialog. And that was a reflection of 
the failure for Republicans and Democrats to come together to 
find a balanced comprehensive reform to TSCA that could secure 
bipartisan support.
    You know, that all changed just this last year when, thanks 
to the leadership of Senator Lautenberg and Senator Vitter, 
they brought together diverse constituencies to work out some 
of our differences, and develop not a perfect bill by either of 
our perspectives, or any of our perspectives, but develop a 
balanced approach that could provide for meaningful 
improvements to TSCA regulations. And it was really that 
balanced approach that was also groundbreaking in that we were 
able to develop the support of 25 members of the U.S. Senate, 
equally split, well, 12 to 13, between Republicans and 
Democrats. Again, unprecedented. And I really appreciate the 
work that this committee has done to try to find ways which we 
can build upon the progress that was achieved in the Senate, 
because our industry, and the value chain at large, has also 
increased their support in TSCA reform, because it is not only 
the chemical industry, it is the information technology 
industry, there is actually now an alliance of about 100 
different associations representing everyone from the retail 
federation to toy manufacturers to automobile manufacturers, 
technology, semiconductors, that have all come together to 
support the CSIA, because they see it as a balanced and a 
meaningful reform of the existing TSCA legislation.
    Also unprecedented is not only industry, but you also have 
organized labor that has joined in support of TSCA reform. You 
have the electrical workers and IBW, the North American 
Building Trades, the machinists, aerospace, transportation, and 
the ironworkers have also joined in support.
    So the message here is is that, you know, something that is 
positive is happening here. We have also heard in some of the 
comments of Jim Jones as well as Administrator Gina Jackson 
that the CSIA really does set the foundation for meaningful 
progress to see reform of TSCA today. It is also, I think, 
important that when you look at the comments by former 
Administrator Christine Todd Whitman, and Charlie Auer who was 
manager of the TSCA Program under President Bush, as well as 
Steve Owens who was President Obama's appointment that had 
jurisdiction over TSCA reform, that have also came and support 
and endorse CSIA. And they did so because they recognize that 
they address many of the problems that they had concerned with 
implementation of TSCA. It requires a systematic evaluation of 
all grandfathered chemicals for the first time. It prioritizes 
chemicals for EPA reviews so chemicals with the greatest need 
get the first and greatest attention. It gives EPA more 
efficient authority and ability to get the data that they need 
to make the determinations, and it requires EPA to make more 
information available to the public, a leading goal of 
environmental advocates and industry alike.
    You know, we recognize at ACC that there are some members 
in the NGO community that would like to see some reforms and 
some modifications of the existing law, but when we look at the 
5 issues that they surfaced early on, we think that those can 
be addressed in a meaningful and appropriate way that can build 
and improve upon CSIA, but does not, I guess, disrupt or create 
an imbalance in this coalition that could put us back into the 
gridlock that has been characterized in our ability, or our 
lack of ability, to achieve TSCA reform over the past better 
part of 37 years.
    You know, I will be pleased to respond in detail to a lot 
of the questions you have, but my message here is, is that, you 
know, this bill isn't viewed by being perfect by industry, and 
I know Dr. Denison will say it is not viewed as perfect by the 
Environmental Defense Fund, but all of you that are serving in 
Congress today, just like I served for 14 years, know that 
there are very few perfect pieces of legislation from one 
constituent's interest. The only way we are going to see 
progress in enacting TSCA reform is it is going to take a 
balanced, comprehensive approach, and I hope that we use the 
CSIA as that foundation. I know that there are opportunities to 
make those modest and marginal reforms that will address some 
of those legitimate issues, but we have to be concerned of the 
delicate balance that we have in place here, and assure that we 
don't disrupt that.
    [The prepared statement of Mr. Dooley follows:]
    [GRAPHIC] [TIFF OMITTED] T7628.009
    
    [GRAPHIC] [TIFF OMITTED] T7628.010
    
    [GRAPHIC] [TIFF OMITTED] T7628.011
    
    [GRAPHIC] [TIFF OMITTED] T7628.012
    
    [GRAPHIC] [TIFF OMITTED] T7628.013
    
    Mr. Shimkus. Gentleman's time expired.
    Chair now recognizes Mr. Ernie Rosenberg, President and CEO 
of the American Cleaning Institute.

                 STATEMENT OF ERNEST ROSENBERG

    Mr. Rosenberg. Thank you, Chairman Shimkus, Ranking Member 
Tonko, members of the subcommittee. My name is Ernie Rosenberg, 
thank you, and I am the President and CEO of the American 
Cleaning Institute.
    Our member companies have facilities in the Congressional 
districts of two thirds of the subcommittee membership, and 
the--our members' products are in every home in the country.
    Strengthening the Toxic Substances Control Act is a top 
priority for our member companies. That is why I am here today. 
A strengthened TSCA has the potential to promote consumer and 
environmental protection, while enabling innovation for new and 
improved products. That is why we support the Chemical Safety 
Improvement Act.
    This legislation provides a strong roadmap for action in 
the 113th Congress. We commend the bipartisan efforts that led 
to the development of this measure, and especially the work of 
the late Senator Frank Lautenberg and Senator David Vitter. 
Twenty-five Senate Republicans and Democrats are cosponsors of 
what is truly bipartisan legislation.
    A lack of confidence in TSCA has prompted States, local 
jurisdictions and businesses to restrict certain chemicals. 
These actions, unfortunately, create a regulatory and business 
climate that is driven by perceived safety concerns, not by 
sound science.
    Allow me to highlight three important reasons for 
strengthening TSCA. First, a credible Federal program is 
crucial to having both a national market and improve public 
confidence in EPA's regulatory program. Second, TSCA must 
account for ongoing improvements in scientific methods and 
processes being developed by universities, the government and 
industry. This information must be considered by EPA when 
making safety assessments and determinations. Third, TSCA has 
fostered innovative chemical developments in the United States. 
We must ensure that this continues in the years ahead. Cleaning 
product manufacturers are leaders in the development of green 
chemistries that have led to significant energy savings, water 
savings and reductions in waste generation in the United 
States. The development of concentrated laundry and household 
cleaning products allows products that pack greater cleaning 
power in much smaller packaging to provide the benefits I have 
mentioned, and this represents just a few of the innovative, 
convenient and greener products that are available to consumers 
today. TSCA's new chemicals program encourages speed to market 
for such innovative products because of the rigorous and 
flexible way the law addresses this task. EPA relies on the 
strong interaction between government industry to make this 
happen, and has since the--since I was the manager of the 
program at the very beginning. The Chemical Safety Improvement 
Act preserves the efficiencies in the new chemicals review 
process, which are widely acknowledged to work well and are 
critical to innovation. To remain innovative, we need strong 
protection for confidential business information.
    A strengthened TSCA can and must be risk-based, and must 
be--must use the best science. EPA must be able to get the 
information it needs to make an informed chemical assessment 
and risk-management decisions. The Chemical Safety Improvement 
Act strengthens TSCA. It removes barriers to EPA data gathering 
and regulatory actions. I would call upon EPA to evaluate the 
safety of chemicals already in use, and enable the EPA to 
identify and act on chemicals that may pose significant safety 
concerns.
    EPA's enhanced ability to obtain data would encourage 
industry to provide health and safety information to the Agency 
without regulatory delays, and with fewer demands on Agency 
resources.
    CSIA also allows more data to make--be made available to 
the public. For the law to be credible, this is critical. It 
would also open up lines of communication between the States 
and EPA, and allow EPA to share information with them, 
including confidential business information, something TSCA 
does not currently allow. CSIA would allow EPA to meet its 
regulatory obligations, and restore confidence in the Agency's 
ability to do so.
    For the law to become more credible, changes to TSCA must 
be practical, achievable and workable.
    ACIA again thanks you for the opportunity to testify today, 
and I look forward to your questions.
    [The prepared statement of Mr. Rosenberg follows:]
    [GRAPHIC] [TIFF OMITTED] T7628.014
    
    [GRAPHIC] [TIFF OMITTED] T7628.015
    
    [GRAPHIC] [TIFF OMITTED] T7628.016
    
    [GRAPHIC] [TIFF OMITTED] T7628.017
    
    [GRAPHIC] [TIFF OMITTED] T7628.018
    
    [GRAPHIC] [TIFF OMITTED] T7628.019
    
    [GRAPHIC] [TIFF OMITTED] T7628.020
    
    [GRAPHIC] [TIFF OMITTED] T7628.021
    
    [GRAPHIC] [TIFF OMITTED] T7628.022
    
    [GRAPHIC] [TIFF OMITTED] T7628.023
    
    [GRAPHIC] [TIFF OMITTED] T7628.024
    
    Mr. Shimkus. Thank you, Mr. Rosenberg.
    Now I would like to recognize Dr. Richard Denison, Senior 
Scientist from the Environmental Defense Fund.

                STATEMENT OF RICHARD A. DENISON

    Mr. Denison. Thank you, Chairman Shimkus, Ranking Member 
Tonko, and other members of the committee for your interest in 
this issue, and for the opportunity to share EDF's perspective 
on this bipartisan legislation, the Chemical Safety Improvement 
Act.
    I have four key points I would like to make today.
    First, we have a major political opening to address an 
urgent health concern, and to fix a law that everyone believes 
needs reform. Second, the bill before us has many of the 
elements needed for effective reform, and a concern for moving 
reform forward. Third, the bill also has serious problems that 
must be remedied. And fourth, those problems, while serious, 
are fixable.
    The need for reform is more urgent than ever, with science 
increasingly linking exposures to certain chemicals to serious 
health effects.
    My organization has been working to reform TSCA for more 
than 20 years, and I personally for well over a decade. The law 
simply does not work. It is not protecting the health of 
Americans, it doesn't provide the information companies need to 
make sound decisions, and it doesn't give consumers and the 
market the confidence that companies need to run their 
businesses.
    In May of this year, we saw a breakthrough with the 
introduction of CSIA. The bill is both a promising start and 
far from perfect. It contains many elements of TSCA reform that 
need significant changes to actually deliver those reforms. I 
am convinced the problems can be addressed while retaining the 
bipartisan support needed to pass legislation.
    Let me note several ways in which CSIA addresses major 
flaws in current law. For the first time safety reviews would 
be required for all chemical--in order to be made and sold. 
Also for the first time--gain access to confidential business 
information.
    CSIA would address the two main reasons the TSCA safety 
standard has failed. It would generally replace the current 
cost benefit standard with a requirement for a health-only 
standard, and it strikes the least burdensome requirement for 
TSCA regulations that has, as Mr. Jones said, become a recipe 
for paralysis by analysis.
    CSIA would also fix TSCA provisions that thwart EPA's 
ability to get new data on a chemical. It could issue test 
orders and avoid a regulatory process that takes many years. 
And it strikes the catch 22 under TSCA that requires the EPA 
first show evidence of risk in order to require testing. But 
the bill would also erect some major barriers to EPA 
effectively and efficiently using these new tools. The safety 
standard does not ensure protection of vulnerable populations, 
including pregnant women, infants, workers who may be more 
exposed or more susceptible to the effects. The bill would not 
ensure that all information claimed confidential actually 
warrants trade secret protections. It would weaken current TSCA 
by barring the testing of new chemicals, or ones lacking enough 
data to screen their safety. This means EPA would either have 
to give a pass to data poor chemicals that may post a risk, or 
waste time scrutinizing chemicals that more data would show 
pose little risk. And the bill lacks deadlines and has so many 
procedural requirements that just getting the system up and 
running would take years.
    My testimony includes an analysis I have done that is quite 
optimistic in terms of time frames that shows that more than 7 
years would be required to get to the first safety 
determination for a chemical.
    Finally, the bill's sweeping preemption of State authority 
needs to be significantly narrowed so that, for example, States 
can continue to act until and unless EPA takes final action on 
a chemical, and can, with good cause, obtain waivers that allow 
them to go further than a State than EPA--control of chemical 
risks.
    Mr. Chairman, let me end on a positive note. The bipartisan 
bill offers major political opportunity and conserves the basis 
for talks to move reform forward, and while its deficiencies 
are serious, as I mentioned before, I believe they are all 
fixable. I am encouraged that the informal negotiations on the 
bill that have been occurring in the Senate already appear to 
be moving in the right direction, but there is more work to be 
done. I urge the subcommittee to build on the foundation laid 
by S. 1009 to pass meaningful TSCA reform legislation in this 
Congress. The health of--and I thank you for your time today.
    [The prepared statement of Mr. Denison follows:]
    [GRAPHIC] [TIFF OMITTED] T7628.025
    
    [GRAPHIC] [TIFF OMITTED] T7628.026
    
    [GRAPHIC] [TIFF OMITTED] T7628.027
    
    [GRAPHIC] [TIFF OMITTED] T7628.028
    
    [GRAPHIC] [TIFF OMITTED] T7628.029
    
    [GRAPHIC] [TIFF OMITTED] T7628.030
    
    [GRAPHIC] [TIFF OMITTED] T7628.031
    
    [GRAPHIC] [TIFF OMITTED] T7628.032
    
    [GRAPHIC] [TIFF OMITTED] T7628.033
    
    [GRAPHIC] [TIFF OMITTED] T7628.034
    
    [GRAPHIC] [TIFF OMITTED] T7628.035
    
    [GRAPHIC] [TIFF OMITTED] T7628.036
    
    [GRAPHIC] [TIFF OMITTED] T7628.037
    
    [GRAPHIC] [TIFF OMITTED] T7628.038
    
    [GRAPHIC] [TIFF OMITTED] T7628.039
    
    Mr. Shimkus. Thank you, Dr. Denison.
    Now I would like to recognize Mr. Dean Garfield, President 
and CEO of the Information Technology Industry Council.
    Sir, welcome.

                 STATEMENT OF DEAN C. GARFIELD

    Mr. Garfield. Thank you, Mr.--Chairman Shimkus, Ranking 
Member Tonko, members of the committee.
    On behalf of the 54 of the most dynamic and innovative 
companies in the world, as well as the nearly 6 million people 
who work in the tech sector, we thank you for hosting this 
hearing and asking us to testify.
    We have submitted our testimony for the record, so rather 
than repeat it, I will highlight three elements of that 
testimony.
    First, we strongly support this bipartisan and bicameral 
effort to reform TSCA. We think it is a unique opportunity to 
advance our human health and environmental shared interests. 
The tech sector takes very seriously its role as corporate and 
environmental stewards, whether it is in product design where 
we are driving down the energy usage of our products, or in 
sourcing where we are developing and promulgating responsible 
sourcing, paradigms and programs, or in our recycling and reuse 
programs that we have all across the world. We view these 
issues as first priorities and intend to stay engaged. And so 
thank you for your efforts.
    Second, we think this regulatory reform creates an 
opportunity to develop regulatory processes that are timely, 
transport and based on sound science. In that regard, we will 
be placing particular emphasis and paying a lot of attention to 
how you deal with the issue of chemicals and articles. In 
particular, we think it is very important for Congress to give 
guidance to the EPA in that area, but at the same time, we 
don't think it should be done in an import/export control 
fashion, and, in fact, we think the current process whereby the 
EPA has a case-by-case analysis is one that is appropriate and 
should be continued.
    Finally, we strongly agree with Chairman Shimkus' opening 
statement that TSCA reform can and should be an opportunity to 
enhance rather than inhibit innovation. With that in mind, we 
think it is important for three things to occur. One, as the 
previous witness, Mr. Jones, pointed out, we think that the 
approach and direction to EPA has to include some important 
time limits, particularly as it relates to dealing with 
innovative or new uses of chemicals. Second, dealing with 
covered--I am sorry, dealing with confidential business 
information is critically important. Intellectual property is 
key, the lifeblood of the tech sector, and so ensuring that 
confidential business information is maintained as confidential 
is critically important to us. And third and final, the issue 
of preemption is also critically important. We recognize that 
the States have an important role to play in these processes 
and in setting standards, at the same time, we develop locally 
and disseminate globally. And so dealing with 50 or 51 
different standards around human health and environmental 
safety is simply untenable and unworkable for us.
    Thank you again for the opportunity to testify, and I look 
forward to your questions.
    [The prepared statement of Mr. Garfield follows:]
    [GRAPHIC] [TIFF OMITTED] T7628.040
    
    [GRAPHIC] [TIFF OMITTED] T7628.041
    
    [GRAPHIC] [TIFF OMITTED] T7628.042
    
    [GRAPHIC] [TIFF OMITTED] T7628.043
    
    [GRAPHIC] [TIFF OMITTED] T7628.044
    
    [GRAPHIC] [TIFF OMITTED] T7628.045
    
    [GRAPHIC] [TIFF OMITTED] T7628.046
    
    Mr. Shimkus. Thank you, sir.
    Now I would like to turn to Mr. Andy Igrejas, National 
Campaign Director of the Safer Chemicals, Healthy Families. 
Welcome.
    Mr. Igrejas. Thank you very much, Mr. Chairman and Mr. 
Tonko.
    Mr. Shimkus. Check your microphone.
    Mr. Igrejas. Thank you. Sorry about that.
    Mr. Shimkus. That's all right.

                   STATEMENT OF ANDY IGREJAS

    Mr. Igrejas. Safer Chemicals, Healthy Families is a 
coalition of 450 health and environmental organizations, 
industrial unions and steel and automobiles, as well as 
businesses, some large, some small, from around the country. 
There is a broad political spectrum, actually, of membership in 
the organization in the coalition.
    We came together in 2009 to achieve reform of the Toxic 
Substances Control Act, and we agree with the sentiment and we 
are hopeful that that day could soon be at hand with the 
legislation that has been introduced, but I would have to say 
that we believe that legislation is not yet balanced. It needs 
a lot of work in order to become balanced, and it needs clearer 
benefits for public health and the environment sooner, and it 
needs a clearer break with the dysfunctional past of TSCA, that 
I think has been surfaced in your own analysis and your own 
oversight of TSCA.
    I want to put the focus back on public health because it is 
that concern, the mainstream health professional and public 
health community conclusion that, from pediatricians, 
obstetricians, others, endocrinologists, that chemicals are 
contributing to the burden of disease in this country; the 
diseases that affect millions of American families, and TSCA 
reform is fundamentally a solemn exercise in trying to make 
progress in preventing that effect.
    The groups like the Autism Society, Learning Disabilities 
Association, breast cancer groups and others who are in the 
coalition are here because of that, and it is what is driving 
the public concern that is changing the marketplace and driving 
the States right now. And so we need to make progress on that, 
that is very clear. And I think you had the right idea when you 
started with the examination of what was wrong with TSCA, what 
didn't work and why. And you saw, I think, in the testimony 
that the law never really got off the ground, that the 
procedures and the standards proved to be unworkable, they got 
tied in knots, EPA, trying to regulate asbestos. When they were 
finally done, they were thrown out of court, and the law didn't 
make much other progress. And it is a shame that Mr. Dingell is 
gone because his amendment is one of the clearer parts of TSCA 
that did do something; the PCB ban. And because of all that, 
the fact that TSCA didn't restrict the States turned out to be 
one of its major blessings, one of its only benefits, because 
States have been able to make process in the interim.
    Nevertheless, we are hopeful that the bill can be improved 
based on the testimony of the Senators and our own engagement 
with the Senators' offices and with yourself, being invited 
here. And I want to highlight a few areas, there are more in 
the testimony, for the purposes of helping focus improvement 
and getting to a more balanced bill.
    First is the standard. The core idea of the Chemical Safety 
Improvement Act that the--is that the standard is fixed in the 
unreasonable risk standard. We believe that it is not. The 
attempt to fix it is to apply qualifying language for how it 
should be used in Section 6, but the standard is also used in 
other sections of the bill. And the related issue of the least 
burdensome requirement, while that phrase is excised from the 
bill, a sort of fraternal twin appears that you have heard Jim 
Jones reference that has basically the same effect. And the 
bottom line for us is that the--under the bill, our analysis is 
EPA could still not ban asbestos under this new bill, and that 
is a problem.
    So I think that baggage of TSCA is something to really 
think clearly about, and we need to break with it in this new 
bill. It is otherwise going to weigh down this new bill. The 
clearest--cleanest way to do that would be a new standard, but 
if not, if that can't be done, fixing this standard so that it 
is clearly defined as a health-only standard would go a long 
way to dealing with this problem.
    Another problem that has been mentioned is vulnerable 
populations and aggregate exposure. Maybe aggregate exposure 
hasn't been mentioned yet. These are core concepts to the 
American Academy of Pediatrics' recommendations on reform, and 
I think they should be embraced more tightly in the bill. The 
bill mentions them but does not really require them to be dealt 
with as a fundamental part of reform. And I think if you don't 
do that, you will be left with safety determinations that 
simply don't reflect the fact that children, it is just a plain 
medical fact, are more susceptible to these chemicals than 
people in heavily-impacted communities are, and that people are 
exposed to the same chemical from more than one source at a 
time. And so you need to add up those exposures when you are 
figuring out what is happening to them, and the protective 
measures, the risk-management measures, need to reflect that.
    So if we don't do that, we will simply be getting the 
determinations wrong, and they won't really be protecting the 
public, and I think you want to be able to claim otherwise when 
we are done with this exercise.
    I want to highlight a couple of issues where the bill 
actually goes backwards and we think does new harm. The first 
is the issue of frameworks which has been mentioned. The bill 
requires a lot of new frameworks. It delays the start of the 
program for several years. We believe that that sounds too much 
like the old TSCA. We want less red tape put in front of EPA 
taking action, not more. Also States' rights. That has been 
mentioned earlier. The bill infringes on them to a great degree 
in a way that we think goes against the record. I think you 
noticed in your comments earlier that not a lot of States have 
taken the fundamental action, but at least they have made 
progress on chemicals while the Federal Government was tied up 
in red tape. And our fundamental interest in preserving States' 
ability, both the progress they have made and their ability to 
make new progress, really is Mr. Barrow's hunting dog analogy 
that no one expected TSCA to not work out the way that it did, 
and any problems in this new law, whether the funding or 
anything else at implementation, we want that safety valve that 
the States can still take action and can still make progress.
    So I will mention the other provisions that are in my--just 
briefly. It is CBI, I think they need a new balance on CBI, 
deadlines, the funding mechanism, broader authority to require 
testing, but the bottom line position is all of these issues, 
we think, can be solved. Some of them can be solved quite 
simply, but our main message is that they really have to be 
solved for this bill to be balanced.
    So thank you very much.
    [The prepared statement of Mr. Igrejas follows:]
    [GRAPHIC] [TIFF OMITTED] T7628.047
    
    [GRAPHIC] [TIFF OMITTED] T7628.048
    
    [GRAPHIC] [TIFF OMITTED] T7628.049
    
    [GRAPHIC] [TIFF OMITTED] T7628.050
    
    [GRAPHIC] [TIFF OMITTED] T7628.051
    
    [GRAPHIC] [TIFF OMITTED] T7628.052
    
    [GRAPHIC] [TIFF OMITTED] T7628.053
    
    Mr. Shimkus. Thank you.
    And now I would like to turn to Wendy Wagner, Joe A. 
Worsham Centennial Professor at the University of Texas School 
of Law. Welcome and your statement, you have 5 minutes.
    Ms. Wagner. Thank you. Thank you, Mr. Chairman, Ranking 
Member Tonko and----
    Mr. Shimkus. And you may want to pull that microphone a 
little bit closer.

                  STATEMENT OF WENDY E. WAGNER

    Ms. Wagner. That is nice. I have an Ethel Merman voice, so 
it is good to need a microphone.
    Thank you, Mr. Chairman and Ranking Member Tonko and the 
members of the subcommittee. I am pleased to testify here 
today.
    My focus is going to be a little bit different than some of 
the other panelists. I am going to focus on the good science 
provisions of Senate Bill 1009.
    I have studied the use of science by regulatory agencies, 
particularly EPA, for over 20 years, written a couple of books, 
dozens of articles, I have also done some empirical analyses. 
And based on this extensive study, when I look at the good 
science provisions in Senate Bill 1009, I see that they are 
just as likely to undermine the scientific rigor of EPA's 
decision making as to enhance it. And, in fact, I think if you 
show the good science provisions to the National Academies, 
they would identify some fundamental problems with the way the 
bill proceeds, particularly with the idea that the scientific 
information available to EPA should be restricted by terms set 
by Congress with regard to what constitutes acceptable science.
    Now, I raise a number of issues in my written testimony. I 
am just going to highlight three here today.
    The first--there are over 40 pages by my count of good 
science provisions in the bill, but I am not sure what the 
underlying problem is that those 40 pages are trying to 
address. There are really serious problems with TSCA and EPA's 
implementation of TSCA, to be sure. I am not aware in the 
literature though of problems with EPA's failure to use the 
best available science in its regulation.
    Second, as I read it, the bill reduces rather than enlarges 
the information available to EPA to regulate using this best 
available science gateway with the three-prong requirements. 
There are a number of features of the best available science. 
Just to take one as an example, according to the best available 
science, all the information used by EPA in its safety 
assessments and safety determinations needs to have peer-
reviewed data. Now, even with a liberal interpretation of what 
peer-reviewed data is, and there could be a lot of 
disagreements about what that is, even with a liberal 
interpretation, I read that as having the potential to exclude 
a lot of industry submissions over the last 40 years. The 
substantial risk reports under AE, for example, I am not sure 
those would clear just that one barrier in best available 
science. Even the test data provided by the manufacturers over 
the last 30 years, I am not sure that would clear some of the 
best available science requirements. If EPA wants to bring 
these industry submissions up to the standards of best 
available science, it is my reading of the bill that the burden 
would be on EPA. They would need to make sure the industry 
submissions meet all the various requirements.
    More to the point, the problem with TSCA has been the EPA 
doesn't have enough information to assess chemicals. It can't 
regulate chemicals if it doesn't have this information. So 
legislation that actually further restricts the information 
available to EPA to do assessments seems to me to be moving in 
exactly the wrong direction.
    I am also not sure what the scientific pedigree is for this 
best available science provision written in the Senate Bill 
1009. It doesn't align with the National Academy's reports I 
have seen, at least.
    Third, the good science provisions, and this has come up 
before, are loaded with ambiguities. Lawyers, including the 
students I teach, have a term for this. When you have a 
mandatory provision that is very ambiguous, it creates what is 
called an attachment point, because high stakes, litigious 
groups can latch onto those attachment points and hold the 
Agency's feet to the fire in litigation. By my count, the good 
science provisions in Senate Bill 1009 contain dozens of 
attachment points. The administrative literature also reveals 
that when an agency has a statute ladened with all these 
attachment points that invite litigation, not only will be--it 
be embroiled in litigation, but it is likely to seek to 
compromise with the high-stakes, most-litigious groups. It is 
actually not necessarily either because the agency is captured, 
it simply wants to get some rules through the process, so it 
needs to engage in these compromises. One of my worries when I 
look at this is who will these high-stakes litigious groups be. 
I am concerned it won't be the best manufacturers in the United 
States who make the safest and most effective chemicals. The 
manufacturers taking advantage of these attachment points, I am 
concerned, will be the manufacturers that make the least 
effective and most toxic chemicals.
    Now, despite the fact that these good science provisions 
are loaded with attachment points that are likely to lead to 
litigation and delay, as you have heard, except with one 
exception, I think, there are no deadlines at all in the 
statute--I am sorry, in Senate Bill 1009, not the statute. That 
was not a fraudulent slip. The bill also provides absolutely no 
mechanisms for ensuring the transparency of whatever side deals 
in compromises take place.
    In my view, the basic goal of chemical policy should be to 
get safer, more effective chemicals out of our manufacturers. 
The bill does not provide these kinds of incentives.
    If the bill became law as-is, I don't see any possibility 
of a race to the top among the manufacturers in the United 
States who make chemicals. Instead, the bill is ladened with a 
maze of procedural requirements for EPA, with landmines for 
litigation at every turn. I think we can do better.
    Thank you. I look forward to your questions.
    [The prepared statement of Ms. Wagner follows:]
    [GRAPHIC] [TIFF OMITTED] T7628.054
    
    [GRAPHIC] [TIFF OMITTED] T7628.055
    
    [GRAPHIC] [TIFF OMITTED] T7628.056
    
    [GRAPHIC] [TIFF OMITTED] T7628.057
    
    [GRAPHIC] [TIFF OMITTED] T7628.058
    
    [GRAPHIC] [TIFF OMITTED] T7628.059
    
    [GRAPHIC] [TIFF OMITTED] T7628.060
    
    [GRAPHIC] [TIFF OMITTED] T7628.061
    
    [GRAPHIC] [TIFF OMITTED] T7628.062
    
    [GRAPHIC] [TIFF OMITTED] T7628.063
    
    [GRAPHIC] [TIFF OMITTED] T7628.064
    
    [GRAPHIC] [TIFF OMITTED] T7628.065
    
    [GRAPHIC] [TIFF OMITTED] T7628.066
    
    [GRAPHIC] [TIFF OMITTED] T7628.067
    
    [GRAPHIC] [TIFF OMITTED] T7628.068
    
    [GRAPHIC] [TIFF OMITTED] T7628.069
    
    [GRAPHIC] [TIFF OMITTED] T7628.070
    
    [GRAPHIC] [TIFF OMITTED] T7628.071
    
    [GRAPHIC] [TIFF OMITTED] T7628.072
    
    [GRAPHIC] [TIFF OMITTED] T7628.073
    
    Mr. Shimkus. Thank you very much.
    Now I will recognize myself for 5 minutes for the first 
round of--or the round of questionings.
    And my first question I want to direct to Mr. Dooley, Mr. 
Rosenberg and I think Mr. Garfield. And it is based upon the 
question, let me start this, is based upon the question that I 
asked Mr. Jones. And many witnesses have testified before our 
committee on the strengths and successes of existing TSCA 
Section 5 provisions for new chemicals and new uses of existing 
chemicals.
    Are the changes to TSCA Section 5 in the Senate bill needed 
and why? Cal, if you would start.
    Mr. Dooley. ACC, you know, supports the provisions of the 
modifications of Section 5 in CSIA. We recognize that it is 
important, even with the new chemicals, that you do have 
provisions that do allow for EPA to make an affirmative 
determination that the new chemical will likely meet the safety 
standard, and that we accept that it is an obligation upon the 
industry and the manufacturer to provide that information and 
to allow them to make that determination.
    Mr. Shimkus. Mr. Rosenberg?
    Mr. Rosenberg. EPA--thank you. EPA has asked hundreds of 
manufacturers for data in the new chemical program since its 
inception. Without exception, those data have either been 
provided or the premanufacturer notice was withdrawn. So the 
deficiencies, if you will, in Section 5, in my view, go to 
where you end up if you really want to regulate a new chemical, 
and you end up in Section 6. Section 6 has the least burdensome 
alternative hurdle, which I completely agree with Jim Jones, is 
an unmanageable hurdle for the Agency.
    So the changes that are made in Section 5 in the bill do 
one important thing. They do what we are really looking for, 
which is create a more credible program. And the fact that 
there is an affirmative determination gives, at least most 
people, a level of comfort that things haven't just gone 
through because the deadline expired.
    Mr. Shimkus. Mr. Garfield?
    Mr. Garfield. We are still doing some analysis on this, but 
we are also comfortable with the more--with the creation of a 
more credible program. The two concerns are ones that have been 
highlighted before; one, making sure that the timeline and 
deadlines that have been set are ones that are actually 
effectuated, and then two, making sure that confidential 
business information is--continues to be protected.
    Mr. Shimkus. Do you three feel that this would--has a 
chance to harm innovation?
    Mr. Dooley. Well, there is always, you know, that potential 
if EPA, you know, didn't take any judicious approach, but I 
would say that with our experience, and is very consistent with 
what Mr. Rosenberg said, is that EPA's current administration 
of the new chemicals act has been pretty effective, in that it 
has resulted in, you know, the U.S. being at the forefront of 
bringing new chemicals on the market that are being used 
safely, that are ensuring that we are at the forefront in 
developing innovations, and that is validated by the number of 
patents that we receive, the disparity in terms of the number 
of new chemicals and new innovations brought into the 
marketplace in the U.S. versus our competitors in the EU.
    And so we also know that, you know, that, you know, that 
there are going to be some provisions, perhaps even under the 
Administrative Act, that can give us a recourse if EPA 
oversteps their bounds, even in the request of some 
information.
    Mr. Shimkus. Mr. Rosenberg?
    Mr. Rosenberg. Thank you. The innovation is a delicate 
thing, and it depends on what kind of market the chemical is 
going to have, how much volume it will have, as--and how 
innovative it is, as to what cost you can bear in going through 
a regulatory program. Any screening program for chemicals that 
EPA has will put some drag on innovation because some companies 
or some chemicals won't be able to bear the cost, but this is a 
good compromise. This is analogous to what happens in other 
parts of the world. In no part of the world that I am aware of, 
including Europe, does the Agency have to make an affirmative 
finding of safety before a new chemical gets to the 
marketplace. EPA has the strongest power because it is a 
premanufacturing requirement, not a premarketing requirement. 
So nothing--there is no economic value of the chemical yet if 
it hasn't hit the market, whereas in Europe, you can go to the 
market without--by just filing a piece of paper.
    Mr. Shimkus. And speaking to innovation, I would not want 
to leave Mr. Garfield without a chance to respond.
    Mr. Garfield. I also agree it is a reasonable compromise 
that will be impacted perhaps more by EPA's practice. So in 
reality, the way this works, including the deadline, is that 
when you come up against the deadlines, EPA and a company will 
negotiate a suspension of that deadline to ensure that the 
progress continues to be made in resolving the open issues. And 
so in part, a lot of this will depend on whether EPA stays true 
to the deadlines that you have offered or whether they do not.
    Mr. Shimkus. My time has expired. Chair now recognizes Mr. 
Tonko for 5 minutes.
    Mr. Tonko. Thank you, Mr. Chair.
    We heard from EPA earlier that cost-benefit analysis should 
not play a role in the determination of whether a chemical 
meets the safety standard under a reformed TSCA. The bill 
before us continues to use the unreasonable risk standard that 
has historically implied a cost-benefit analysis. A number of 
stakeholders are on record supporting a safety standard that 
focuses exclusively on risk, not cost-benefit analysis. For 
example, ACC's 2009 principle state, and I quote 
``consideration of the benefits of chemicals being evaluated, 
the cost of methods to control their risks, and the benefits 
and costs of alternatives, should be part of EPA's risk 
management decision making, but should not be part of its safe 
use determinations.'' In other words, the determination of 
whether a chemical meets the safety standard for a particular 
use should not involve a cost-benefit analysis.
    Mr. Dooley, does ACC still support that principle for TSCA 
reform?
    Mr. Dooley. Yes, we do. If you had--you know, if you really 
look at, you know, our policy is, and if you look at the CSIA, 
is that there is not a requirement to do a cost-benefit 
analysis on the prioritization, nor is there a consideration of 
the cost-benefit analysis in the safety assessment. But when 
you get to the safety determination, when EPA is making a 
decision that for some intended use, that there needs to be a 
restriction, a regulation or perhaps a ban, then we think it is 
appropriate that you do a cost-benefit analysis of that 
specific action by EPA, because you might have an instance 
there where, let us just say it is mercury in a compact 
fluorescent bulb, you know, something that, you know, an 
innovation that is, you know, contributing to significant 
energy savings. That mercury is a critical component of that 
technology. If you had EPA that would choose to ban mercury 
because it is potentially a hazardous exposure, and they didn't 
go through and do a cost-benefit analysis, or are there other 
alternatives that could contribute to the same environmental 
benefits and energy efficiency benefits, it would result in bad 
regulation from our perspective, and bad public policy.
    Mr. Tonko. Thank you.
    Dr. Denison, do you think that cost-benefit analysis should 
be kept out of the safety standard in a reformed TSCA?
    Mr. Denison. Yes, I do, Mr. Tonko. I think the--I have a 
different reading than Mr. Dooley of what the bill requires 
because I think he stated that the--that cost-benefit analysis 
should come in at the point of the safety determination. I 
think the safety determination needs to be a health-based, 
risk-based determination on the science.
    Now, the factors that Mr. Dooley mentions are appropriate 
to consider in determining how to address a risk for a chemical 
that fails a safety standard, and the bill needs to make that 
demarcation quite clear. That is actually how I read ACC's 
principles back in 2009.
    Mr. Tonko. Thank you. And, Mr. Igrejas, does the Safer 
Chemicals, Healthy Families Coalition have concerns that the 
unreasonable risk standard in the bill before us will not be a 
pure health standard?
    Mr. Igrejas. Absolutely. We read the bill as not having 
effectively separated out the cost benefit from the risk 
decisions, and also retaining the least burdensome requirement, 
which is related but separate for bans and phase-outs.
    Mr. Tonko. And should any TSCA reform bill this committee 
considers be absolutely clear that cost-benefit analysis is not 
a part of the determination that a chemical meets safety 
standard?
    Mt. Igrejas. We believe it should be.
    Mr. Tonko. S. 1009 also leaves in place the substantial 
evidence standard for judicial review that played a significant 
role in the asbestos decision.
    Ms. Wagner, how common is that heightened standard of 
review in the environmental law context?
    Ms. Wagner. Typically, the Agency is held to an arbitrary 
and capricious standard, so it is very unusual.
    Mr. Tonko. Will that standard of review make it harder for 
EPA to prevail in court when it takes action under TSCA than 
under other environmental statutes?
    Ms. Wagner. It is definitely a higher burden. I think the 
case law is a little murky. Some courts actually don't seem to 
use substantial evidence differently than others, but some do. 
On balance, it is likely to be a higher burden.
    Mr. Tonko. Thank you. There is a strong public interest in 
improving EPA's ability to take action under TSCA to address 
the serious risks we face from chemical exposures. We have 
better working models for dealing with risks and other 
environmental laws, the pesticides laws, for example. Any TSCA 
reform bill, in my opinion, considered by this committee should 
remove the known obstacles to TSCA implementation, such as the 
cost-benefit analysis component of the safety standard, and 
this heightened standard of judicial review.
    And with that, I believe my time is up and I yield back.
    Mr. Shimkus. Gentleman yields back his time.
    The Chair now recognizes, I believe, Mr. Green from Texas 
for 5 minutes.
    Mr. Green. Thank you, Mr. Chairman.
    My first series of questions I want to ask, and they are 
just yes or no, for all witnesses. Briefly, do you believe that 
Lautenberg-Vitter is an improvement over current law or is 
status quo preferable?
    Mr. Dooley?
    Mr. Dooley. Yes.
    Mr. Rosenberg. Yes, it is an improvement.
    Mr. Denison. Mr. Green, in some respects yes, in other 
respects no.
    Mr. Green. OK. Mr. Garfield?
    Mr. Garfield. My answer is the same. In some respects yes, 
in other respects no, but in the respects where it is no, it 
can be improved.
    Mr. Green. Mr. Igrejas?
    Mr. Igrejas. I say no.
    Ms. Wagner. With respect to the good science provisions, 
no.
    Mr. Green. OK. Well, for all the witnesses, in your 
opinion, are the issues raised in today's hearings on 
Lautenberg-Vitter issues that can be improved through 
clarification, or are they issues that fundamentally cannot be 
corrected? Why don't I ask the last four since you all are the 
ones that said it wasn't an improvement?
    Mr. Denison. Congressman, I do believe the problems can be 
corrected, and that is based on a number of years of dialogue 
with other stakeholders, including the two gentlemen to my 
right here. So I think there are solutions at hand if we can 
get down to the hard work of negotiating this through and 
finding the right balance.
    Mr. Green. OK. I guess the reason I asked that to start 
with is that, you know, we know the law from 1976 is old and we 
need to update it, but believe me, in a Republican Congress, we 
are not going to get to where a lot of folks would want to be, 
but I just want to make sure we move that ball down the field, 
and that includes passing it through the Senate, because I 
represent a very urban district in East Harris County that has 
chemical plants refineries, and people who live along those 
fence lines. And so that is why I would like to improve the law 
to the best we can get politically through the House and the 
Senate.
    Mr. Dooley, you--can you explain the--and expand on ACC's 
views on the EPA's authority to require testing of chemicals? 
Is it--in particular, does ACC support changes to the EPA's 
current authority to test existing chemicals, and what changes 
and why?
    Mr. Dooley. Yes, we do support, and that is what I think 
was one of the, you know, the fundamental, you know, positives 
about this legislation is, for the first time, those, you know, 
60,000 or however many grandfathered chemicals will be subject 
to prioritization and to a safety assessment. And we support 
those provisions, and--as well as provisions that would give 
the ability for EPA under new chemicals to have--facilitate 
their ability to access the data that they need to make a 
determination whether or not those chemicals do meet the new 
safety standard.
    Mr. Green. OK. And I know the ACC's position on the safety 
standard in both current TSCA and in a modernized TSCA. Is the 
safety standard in Lautenberg-Vitter identical to the current 
standard in TSCA?
    Mr. Dooley. No, it is significantly different in that in 
the new CSIA--rather, the CSIA----
    Mr. Green. Um-hum.
    Mr. Dooley [continuing]. Is that the safety standard of an 
unreasonable risk to human health and the environment from the 
exposure to its intended use is the standard there. It does not 
in any way require a cost-benefit analysis as you do under 
existing law. So it will make a, you know, significant--it is a 
significant difference from the existing standard.
    Mr. Green. And EPA and other areas in environment, do they 
also conduct cost-benefit analyses?
    Mr. Dooley. I am not----
    Mr. Green. OK.
    Mr. Dooley [continuing]. Sure if I--I need to do a little 
more research on that one.
    Mr. Green. And one of the issues is that the Lautenberg-
Vitter would--has an addition of deadlines compared to TSCA. Is 
that a benefit as compared to--a benefit from the additional 
deadlines?
    Mr. Dooley. Well, you--the issue of deadlines has been a 
subject of a lot of conversation with Administrator Jones that 
was here today. You know, from an ACC perspective, you know, we 
have no objection to deadlines, but we think the deadlines need 
to be reasonable. And I thought it was interesting when 
Administrator Jones was making his statement today, he said he 
needed deadlines. But the people that we need the information 
on, what is the appropriate deadlines, is the EPA. You know, we 
need the information from them in terms of how many chemicals 
do you think is appropriate of the 60,000 that you want to have 
go through a prioritization and safety assessment, and perhaps 
a safety determination. How many of those can you do, and how 
many FTE's do you need to do, and what is a reasonable time 
frame to do those.
    I think what is difficult for members of Congress in 
constructing this legislation is to develop arbitrary deadlines 
that you would think EPA can meet. What the legislation 
attempts to do is put the onus and the burden on EPA to set 
deadlines that they are compelled to meet, which would then be 
informed upon the capacity and the expertise that they have to 
carry out the provisions of CSIA.
    Mr. Green. OK. Mr. Denison, your testimony discussed the 
process for evaluating new chemicals. How would EPA determine 
if a chemical is likely safe under this legislation?
    Mr. Denison. Congressman, the details of that are left to 
EPA, I think, not specified in the legislation in any detail, 
but I think the key here is that there is first the affirmative 
requirement that evidence of safety be available on a chemical 
in order for that chemical to be sold. And second, that the bar 
is actually intentionally, I think, lower than it is for a 
chemical that is already on the market. So the difference 
between likely meets the safety standard and meets the safety 
standard reflects the fact that that chemical is in an early 
stage of development, it has not yet been on the market, and, 
therefore, the amount of information and the amount of ability 
to demonstrate definitively its safety is appropriately less. 
But the key difference from current law is, as Mr. Jones 
stated, changing from a passive system where unless EPA finds a 
problem, that chemical simply can come onto the market, to one 
that requires EPA to affirmatively find some evidence of safety 
as a condition for market entry, and that is a key change.
    Mr. Green. How does giving EPA the authority to issue 
orders for testing requirements as found in Lautenberg-Vitter 
an improvement over the present law?
    Mr. Denison. Congressman, the length of time that EPA has 
to take to get a rule through to require testing averages about 
5 years. An order could be issued within a few months. We think 
that is a significant improvement. The only problem I would 
flag here is that, while the bill makes it easier for EPA to 
get information, it limits the points in time in the process 
when it could do so. So, for example, if EPA has a new chemical 
or a chemical that it is trying to prioritize, and it finds it 
doesn't have enough data, the bill actually strips the current 
authority EPA would have to require testing at that stage in 
the process. We think that is a problem.
    So there are some positive aspects of the bill in this 
regard; order authority and the removal of the requirement to 
first show risk, but there is also some restrictions on EPA's 
current authority to actually require testing.
    Mr. Green. Mr. Chairman, I know you have been very kind 
and--but obviously we need to deal with that as a committee 
when we--to address that. Thank you.
    Mr. Shimkus. That is because I have great affection for my 
colleague from Texas.
    So now I would like to recognize my colleague from New 
Jersey, Mr. Pallone, for as much time as he wants to consume. 
How about that?
    Mr. Pallone. Well, I won't use too much, I promise, but 
thank you, Mr. Chairman. I am pleased the committee has 
convened this hearing, and I certainly appreciate the efforts 
of my late Senator from New Jersey, Senator Lautenberg, to 
bring both sides together on this critical issue.
    I have met with stakeholders in the environmental community 
and in the chemical industry, and we can all agree that the 
status quo is not working. The GAO has included the current 
TSCA statute in its high-risk series over the last several 
years, citing EPA's lack of authority to limit exposure to 
chemicals that may pose substantial health risks. And I believe 
there are many other issues that all stakeholders can agree 
upon, including striking the language that compels the EPA to 
pursue the least burdensome requirement that is so strict, it 
prevented EPA from regulating asbestos.
    So, Mr. Chairman, I hope to work with you and our 
colleagues to craft a bipartisan bill. And I just wanted to ask 
two questions, if I could.
    First is posed to Mr. Denison, and that is, you state in 
your testimony that, and I quote, ``by EPA merely designating a 
chemical as high or low priority, all States would be precluded 
from imposing a new requirement on the chemical.''
    So my question is, do you feel this preemption mechanism is 
triggered too early in the process, and if so, what type of 
timeline, if any, do you consider practical?
    Mr. Denison. I do, Congressman. I think the extent to which 
the law will restrict States' ability to act needs to be placed 
at the end of the process of EPA's evaluation and determination 
of the safety of a chemical, and where necessary, the 
promulgation of a rule that applies the appropriate 
restrictions. If that preemption kicks in earlier in the 
process, as it does for new requirements under the bill, the 
concern I have is that States would not be able to act, and 
then the incentives for dragging out the length of time it 
would take to get from simply EPA prioritizing a chemical to 
that final action, the incentives would be to drag that out as 
long as possible.
    So we need a system that provides incentives for efficient 
and effective action, and I worry that provision in particular 
would run counter to that.
    Mr. Pallone. Do you want to talk about a time--a different 
timeline any more than you have, or----
    Mr. Denison. Yes. I think the--those triggers for 
preemption need to occur at the final action of the Agency. If 
it finds a chemical meets a safety standard, that would be the 
final action. If it finds a chemical doesn't meet the safety 
standard, the final action would be the promulgation of that 
rule that imposes the appropriate risk management, and that 
should be the trigger for preemption.
    Mr. Pallone. All right, thank you.
    And then my second question, Mr. Chairman, is to Mr. 
Igrejas. I hope I am pronouncing it.
    As we work to reform TSCA, I believe one of the most 
important issues is protecting vulnerable populations, such as 
infants and those living near chemical facilities. In New 
Jersey, as you know, we have a combination of both a large 
number of chemical facilities and a high population density. So 
the consequences of insufficient protection are dire. And so I 
wanted to ask you, you mentioned in your testimony that you 
think, and I quote, ``intent and language do not match up 
regarding protecting these populations.'' So what do you 
suggest to ensure the bill works to protect vulnerable 
populations such as children and those living near the chemical 
facilities?
    Mr. Igrejas. Sure. Thank you very much. I think vulnerable 
populations could be clearly defined first, a definition of 
what it includes; children, pregnant women, heavily-exposed 
individuals in communities, and then they should be explicitly 
required to be included in the safety determination and 
protected by any risk-management measures. That would play the 
issue out, so to speak, so that we know the decisions that are 
made, the measures that are taken are protecting the vulnerable 
populations.
    Mr. Pallone. OK, but nothing more in terms of specifics at 
this point, other than the definition or how----
    Mr. Igrejas. The definition and clear language that they 
are included in not just the assessment phase, which is in the 
bill now, but in the determinations and risk-management 
measures.
    Mr. Pallone. OK. All right, that is it, Mr. Chairman. I 
didn't use my 5 minutes. Thank you.
    Mr. Shimkus. Well, I thank my colleague. And I was going to 
ask, because it was very interesting, I appreciate you all 
being here. Maybe we have gone around, but I think we have 
fleshed out as much as we can right now, and I am sure we will 
see some of you through our offices as we continue this 
process.
    Just some final comments. It is really hard for me to 
believe that the product in the Senate bill is not better than 
the current law. I mean on the face of it, it--a bill that is--
a law that is 37 years old and has not been changed, and has 
proven to be not effective, something has to be better than 
nothing. I think that is where there is some commonality in 
moving forward.
    The second thing is, this risk-based issue, there is--I 
guess my--there is--Cal brought up a good issue about the 
compact fluorescent bulbs, and what is the environmental 
benefit or societal benefit of maybe a hazardous chemical that 
is used in a product that benefits mankind. I am not a climate 
guy here, everybody knows that, but if you are, you like 
compact fluorescent bulbs, and there is a--some people would 
believe there is a great return on--in fact, we had debated 
that in our Cap and Trade Bill on that very same issue.
    So there are issues there. Preemption is going to be a 
contentious issue, and the--and--but I would like people to 
start talking to us about deadlines because it seems like, 
through the three panels, well, at least the second two, 
deadlines was a consistent theme. And I am--Ms. Wagner, I think 
your testimony was very intriguing, and I think we are going to 
look further into your comments and try to flesh out some of 
that stuff.
    I have a unanimous consent request that all members of the 
subcommittee have 5 days to submit an opening statement for the 
record. So ordered. I would like to ask unanimous consent to 
insert letters into the record from the California EPA, Breast 
Cancer Fund, National Conference of State Legislatures, two 
from the Environmental Working Group, a letter from 35 Senators 
and lawyers, from 25 medical professionals, and remind--without 
objection, so ordered.
    [The information appears at the conclusion of the hearing.]
    Mr. Shimkus. And I would like to remind subcommittee 
members they have 10 days to submit questions for the record. 
Without objection, so ordered.
    Thank you. With that, we want to thank you for your 
testimony. Please keep working with us. I think there is some 
great interest to try to move forward, and hopefully throughout 
this process we can get through the finish line.
    And with that, I will call this hearing adjourned.

    [Whereupon, at 1:07 p.m., the subcommittee was adjourned.]

    [Material submitted for inclusion in the record follows:]

    [GRAPHIC] [TIFF OMITTED]     


                                 <all>

</pre></body></html>
